<html>
<title> - NOMINATION OF MICHAEL P. HUERTA TO BE ADMINISTRATOR OF THE FEDERAL AVIATION ADMINISTRATION</title>
<body><pre>[Senate Hearing 112-700]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-700

                    NOMINATION OF MICHAEL P. HUERTA
                       TO BE ADMINISTRATOR OF THE
                    FEDERAL AVIATION ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                  U.S. GOVERNMENT PRINTING OFFICE

78-392 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
             Richard M. Russell, Republican Staff Director
            David Quinalty, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 21, 2012....................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Boxer.......................................     2
    Prepared statement...........................................     3
Statement of Senator Hutchison...................................     4
Statement of Senator Rockefeller.................................    19
    Prepared statement...........................................     4
Statement of Senator Thune.......................................    21
Statement of Senator Begich......................................    23
Statement of Senator Lautenberg..................................    25
Statement of Senator Blunt.......................................    27
Statement of Senator Boozman.....................................    29
Statement of Senator Klobuchar...................................    31

                               Witnesses

Michael P. Huerta, Nominated to be Administrator, Federal 
  Aviation Administration........................................     5
    Prepared statement...........................................     7
    Biographical information.....................................     8

                                Appendix

Letter dated June 19, 2012 from Hans Ephraimson--Abt, Chairman, 
  Air Crash Victims Families Group to Hon. John D. Rockefeller IV    35
Response to written questions submitted to Michael P. Huerta by:
    Hon. John F. Kerry...........................................    35
    Hon. Barbara Boxer...........................................    36
    Hon. Mark Pryor..............................................    38
    Hon. Kay Bailey Hutchison....................................    39
    Hon. Jim DeMint..............................................    49
    Hon. John Thune..............................................    51
    Hon. Pat Toomey..............................................    58

 
                    NOMINATION OF MICHAEL P. HUERTA
                       TO BE ADMINISTRATOR OF THE
                    FEDERAL AVIATION ADMINISTRATION

                              ----------                              


                        THURSDAY, JUNE 21, 2012

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. The Senate Committee on Commerce, 
Science, and Transportation will come to order, and I'd like to 
thank our witness for being here, Mr. Huerta, who is the 
nominee to be the FAA Administrator and our colleague from the 
Committee Senator Boxer. I'm presiding at the request of the 
chairman of the full Committee, who is here, and I'm going to 
go ahead and make an opening statement.
    Mr. Huerta, I want to congratulate you again for your 
nomination by the President to be the next FAA Administrator. 
I'm glad the President has put your name forward for two 
reasons: first, you earned the nomination and you've served 
capably as Deputy Administrator and as Acting Administrator for 
the past several months and when you came in front of this 
committee the first time, I recall there were many whispers 
about whether you had enough background in aviation. Well, you 
have demonstrated that that is a non-issue and you have brought 
a great skill set, a great mind set, to this job and we thank 
you for that.
    To me what's most important is that once you were 
confronted with the challenges of running such a large and 
complex agency you demonstrated strong leadership and strong 
judgment in this job. Now, that is not to say that there aren't 
problems to solve. There are several areas where we need 
improvement, and I do feel that overall the FAA has been making 
great progress under your watch.
    Second, it is important that the FAA have a confirmed 
administrator as soon as possible. I know it's a Presidential 
election year and I know the FAA Administrator term is for 5 
years, but not having an Administrator sends the wrong message 
to the airline industry and to others about how important an 
Administrator is in this next phase of implementation of 
NextGen technology.
    Also, under the leadership of Chairman Rockefeller and 
Ranking Member Hutchison, they were instrumental in enacting an 
FAA authorization bill in February, and there are a number of 
rulemakings and other actions that are supposed to be completed 
within the next 6 to 9 months or even a year after this 
enactment. So I believe that without a confirmed Administrator 
that will make all of those issues more difficult and punted 
down the road.
    As a result, I expect the implementation of the FAA 
Modernization and Reform Act--if we don't implement an 
Administrator--we will have challenges in getting that done on 
time.
    So, Mr. Huerta, if you are confirmed you are going to have 
a lot of challenges ahead. We had a chance to speak about some 
of those in my office. We spoke about aviation safety, and 
safety is the FAA's top priority. It is also one of the top 
priorities of the Aviation Subcommittee.
    We spoke about the challenges of modernization of our air 
transportation system and I know you have had some firsthand 
experiences with that. We touched on the Greener Skies 
Initiative, a pilot program out of Seattle that demonstrates 
the NextGen capabilities in the near term. And we spoke of the 
improved sequencing process for FAA certification.
    So I understand the FAA has real resource constraints, but 
the FAA certification process should not be a bottleneck 
costing aerospace sales or exports or ultimately jobs. The FAA 
bill requires the agency to look at ways to improve the process 
and I know that this is under review.
    Finally, we spoke about the FAA in its efforts to help 
those of the active duty military interested in careers in 
aviation in maintenance repair and overhaul of the airframe 
system get the certifications they need to help us and to help 
our industry.
    So I look forward to your testimony today, and again thank 
you for your willingness to serve. And now I'll turn it to----

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Madam Chairman, may I ask a point--make a 
point of personal privilege, a request to my friends? I'm in 
the middle of literally 24-7 negotiations on the highway bill 
and it's going well, and I'm due to meet with Chairman Mica. Do 
you mind if I just gave one and a half minutes of praise for 
this wonderful man and then charge out the door? Would that be 
all right?
    Senator Hutchison. Absolutely.
    Senator Boxer. I am so grateful. I am so grateful.
    Senator Hutchison. Thank you for the job you're doing on 
the highway bill.
    Senator Boxer. Well, it's going to turn to you and Senator 
Rockefeller momentarily to resolve the last few issues. I'm 
very hopeful, is all I could say. But thank you.
    So I will ask unanimous consent to place my entire 
statement into the record at this time and I will summarize.
    I'm so pleased with the nomination of Mr. Michael Huerta to 
be Administrator of the FAA, and I want to congratulate Michael 
and his family. Ann, would you stand, and Matthew, would you 
stand. We're so happy you're here, literally behind your 
wonderful dad and husband.
    I am proud that a Californian has been nominated, of 
course, by President Obama. I won't be repetitive. Mr. Huerta 
has a long history of service. His nomination to be Deputy was 
confirmed unanimously by the Senate. So this is a tested 
gentleman, and the leadership roles he played at the Port of 
San Francisco, at the Salt Lake City Olympics, as chief of 
staff for the Secretary of Transportation under the Clinton 
Administration, will serve him well.
    I won't go into the task. We all know it. It's a huge job, 
and it's a life-and-death job.
    So in closing, I want to just note and pay tribute to a 
number of families, family members of victims of the tragic 
crash of Flight 3407 near Buffalo in 2010. They're here in the 
audience today, and they're here to remind us all of what is at 
stake when it comes to the need for adequate safety 
regulations. I know Mr. Huerta carries that responsibility very 
close to his heart, and I believe his breadth of experience and 
leadership make him an excellent choice to fill the role of 
Administrator at the FAA.
    I want to thank my friends on the Committee, all of you, 
for this opportunity, and I look forward to a swift 
confirmation.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Mr. Chairman, I am pleased to be here today to support the 
nomination of Mr. Michael Huerta to be Administrator of the Federal 
Aviation Administration (FAA). I would like to congratulate Michael and 
his family, his wife Ann and his son Matthew, on his nomination.
    I am proud that a California native and a University of California, 
Riverside graduate has been nominated by President Obama to lead the 
FAA.
    Mr. Huerta has a long history of service in the transportation 
sector, and his nomination to be Deputy Administrator was confirmed 
unanimously by the Senate in 2010.
    Prior to his work at the FAA, Mr. Huerta served in a number of 
leadership roles ranging from the Executive Director at the Port of San 
Francisco, to coordinating transportation for the Salt Lake City 
Olympics to serving as the Chief of Staff for the Secretary of 
Transportation (DOT) under the Clinton Administration.
    I worked with him on several transportation initiatives that were 
important to California. These projects brought jobs to California, and 
greatly increased California's ability to move goods and people in our 
state. I am confident he will continue to bring that same leadership to 
key FAA programs.
    The FAA is facing many challenges.
    The U.S. commercial aviation system operates over 30,000 flights 
every day and carries over 700 million people per year. The number of 
passengers is expected to reach one billion by 2021.
    And the FAA is tasked with ensuring the safety of our aviation 
system while working to modernize that system to meet the increasing 
needs of our Nation.
    I know that I will join many of my colleagues on this Committee in 
urging the FAA to continue to expedite its important work to improve 
safety.
    I understand that there are a number of family members of victims 
of the tragic crash of Flight 3407 near Buffalo in 2010 who are in the 
audience today, and who are here to remind all of us of what is at 
stake when it comes to the need for adequate safety regulations.
    One of Mr. Huerta's responsibilities during his time at the FAA has 
been shepherding the development of the NextGen system, which will 
modernize our air traffic control system and make our skies safer and 
more efficient.
    I know that he is familiar with this project, and his experience 
managing large, complex organizations will help to ensure the steady 
progress we need to modernize our air traffic control system in the 
coming years.
    Mr. Huerta's breadth of experience and leadership make him an 
excellent choice to fill the role of Administrator at the FAA.
    I look forward to working with him in his new capacity and 
congratulate him again on his nomination.
    Thank you, Mr. Chairman.

    Senator Cantwell. Thank you, Senator Boxer. Thank you for 
being here this morning. We appreciate your activity on the 
Committee and the FAA bill.
    Now we'll turn to the--unless the Chairman wants to make a 
statement?
    The Chairman. No.
    Senator Cantwell. We'll turn to the Ranking Member if she 
would like to make an opening statement. Senator Hutchison, 
would you like to make an opening statement?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Yes. Did you, Mr. Chairman, want to?
    The Chairman. I'll put mine in the record.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I want to congratulate you, Mr. Huerta, on your nomination to be 
the Administrator of the Federal Aviation Administration (FAA). If 
confirmed, you will be charged with leading the most complex aviation 
system in the world and an agency that faces several critical 
challenges.
    Chief among these tasks is making sure the agency takes the steps 
necessary to maintain the highest levels of safety in the aviation 
industry. Although the aviation sector is enjoying one of its safest 
periods in history, we have experienced some troubling incidents over 
the past few years. The agency has already made substantial progress 
implementing the Airline Safety and Federal Aviation Administration 
Extension Act of 2010. Among other accomplishments, the FAA has issued 
new pilot fatigue rules and moved forward on the use of Safety 
Management Systems. As the new Administrator, I expect that you make 
sure the industry continues to embrace a strong culture of safety.
    The next Administrator will also have to execute the mandates of 
the FAA Modernization and Reform Act of 2012. Aside from safety, 
modernizing the air transportation system remains the most important 
challenge. The Next Generation Air Transportation System (NextGen) will 
make our aviation system safer, more efficient, and strengthen the 
airline sector's ability to help drive economic growth. It is 
encouraging that the FAA has been able to move forward on some key 
components of NextGen, including satellite-based navigation (ADS-B) 
capabilities in the Caribbean, and the development of more precise 
landing and take-off procedures (RNAV and RNP) at airports across the 
Nation. Much of this progress has been achieved under your direction, 
Mr. Huerta, so I have high expectations that you will continue this 
positive trend.
    You already have first-hand knowledge of the challenges confronting 
the FAA and its operations, and you have received high marks for your 
performance. I look forward to hearing from you today on how we can 
strengthen our aviation system.

    Senator Hutchison. Well, I think that the presiding 
Chairwoman said most of the important things. I do think that 
you have had a very good record in your time as Acting and 
Deputy. You took over quite quickly and I think there was a 
seamless transition.
    Certainly NextGen is the biggest thing on your plate and we 
all are going to want to know what the setbacks are and how 
you're going to proceed forward.
    I do want to bring up another couple of things. Number one 
is the U.S. Office of Special Counsel wrote to Congress raising 
concerns about ongoing safety lapses at the FAA, some of which 
we certainly have read about in the newspapers with the air 
traffic controllers. The counsel strongly recommended that more 
rigorous oversight measures be put in place at the Department 
and the FAA.
    Second, the current Federal budget realities require every 
agency to have cost-cutting measures, and I will want to hear 
what you're doing in that regard.
    So with that, let me say that I think you have stepped in 
at a big time at the FAA and you have kept the trains running 
on time, so I will look forward to hearing your testimony and 
then asking you a few questions.
    Senator Cantwell. Thank you, Senator Hutchison.
    Mr. Huerta, if you could now make your statement. Again, 
welcome, and again thank you for having your family with you 
this morning.

STATEMENT OF MICHAEL P. HUERTA, NOMINATED TO BE ADMINISTRATOR, 
                FEDERAL AVIATION ADMINISTRATION

    Mr. Huerta. Thank you very much, Chairman Rockefeller, 
Ranking Member Hutchison, Chairman Cantwell, and I'd also like 
to thank Senator Boxer for that generous introduction. It is an 
honor to appear before you today as President Clinton's nominee 
for Administrator of the Federal Aviation Administration. I'm 
humbled by this nomination and the opportunity that it presents 
to serve our nation.
    I'd like to thank Secretary LaHood for his leadership and 
support, and I'd also like to recognize my family members who 
were introduced who are with me today: my wife Ann and my son 
Matthew, and my sister Rose, who is visiting from California. 
Of course, I'd also like to thank my late parents, who I know 
are with me in spirit today.
    At the Federal Aviation Administration, we operate the 
largest and safest aviation system in the world. The safety of 
the traveling public is our number one priority and it's our 
mission. We're constantly working to identify and to address 
potential risks long before there is a problem. We have 
achieved a greater level of collaboration with our workforce 
and we are working constantly to enhance our safety culture.
    Congress has helped us in our efforts by passing the FAA 
reauthorization earlier this year, and I want to thank all of 
you, the members of this committee, for your role in this major 
accomplishment. The reauthorization gives the dedicated 
employees of the FAA greater financial guidance and it provides 
greater stability to all of our programs. All of this is vital 
to keeping the economic engine of civil aviation at full 
capacity. It helps expand on the 10 million jobs and $1.3 
trillion that civil aviation already contributes to the 
American economy each year. Thank you again.
    Now I would like to share a little about my background with 
you today. I have spent my entire career in transportation, 
with rewarding professional experiences in both the public and 
the private sectors. I've held senior policy positions at the 
U.S. Department of Transportation under President Clinton. 
There I gained valuable insight into the day to day operations 
of many Federal agencies, including the FAA.
    Later I was a managing director for transportation with the 
Salt Lake Olympic Committee. This experience taught me that an 
immovable deadline can be extremely powerful in motivating and 
in focusing a team toward a common objective.
    More recently, in the private sector I led a large 
transportation technology services company. I managed the 
operations of a global organization and a diverse and technical 
workforce to ensure that we met our financial targets. I came 
to develop a great appreciation for the benefit of mission-
focused partnerships between government and business.
    Two years ago I returned to the Federal Government, where 
I've had the opportunity to serve as Deputy Administrator of 
the FAA and now as Acting Administrator. I'm honored that 
President Obama has nominated me to lead this great agency. In 
the last 2 years I've focused on positioning the FAA to deliver 
NextGen, the Next Generation Air Transportation System.
    We recently established a new organization within the 
agency to focus on implementing major technology programs. This 
will improve the coordination among all of our NextGen 
initiatives, helping us to usher them from the drawing board to 
live operation.
    What we do over the next several years is going to 
determine the course of aviation in this country for decades to 
come. That is why it's critical that the FAA work closely with 
Congress, with other government agencies, and all the 
components of the aviation industry and the communities they 
serve as we lay this foundation for the future.
    NextGen is the total transformation of the way we handle 
air traffic. We're moving from radar to satellites, from radios 
to data messages, and from airways that zigzag the country to 
more direct routes. We need public-private collaboration to 
create this new way of doing business.
    NextGen means enhanced safety, greater access to airports, 
a smaller impact on the environment, and more predictable 
schedules for travelers. We're already seeing these benefits in 
metro areas around the country now.
    As we move forward, I've asked my senior leadership team to 
focus on three main areas this year. First, we need to make the 
safest aviation system in the world even safer and smarter. 
Second, we need to realize even more the benefits of NextGen 
and we need to realize them today. And third, we need to make 
sure that we empower our 48,000 FAA employees to embrace 
innovation and to work efficiently.
    Mr. Chairman, I'm honored by the trust the President has 
placed in me as his nominee and, if confirmed, I pledge to 
continue to enhance the safety of our system for the traveling 
public and to guide the FAA through the many challenges that 
lie ahead.
    I would like to thank this committee again for its 
consideration of my nomination and I look forward to continuing 
our close working relationship. I'm pleased to answer any 
questions you might have.
    [The prepared statement and biographical information of Mr. 
Huerta follow:]

    Prepared Statement of Michael P. Huerta, Acting Administrator, 
                    Federal Aviation Administration
    Thank you, Chairman Rockefeller, Ranking Member Hutchison and 
members of the Committee. It's an honor to appear before you today as 
President Obama's nominee for Administrator of the Federal Aviation 
Administration.
    I am humbled by this nomination and the opportunity to serve our 
nation. I'd like to thank Secretary LaHood for his leadership and 
support, and also recognize my family who is with me today--my wife Ann 
and my son Matthew.
    At the Federal Aviation Administration we operate the largest and 
safest aviation system in the world. The safety of the traveling public 
is our number one priority and our mission. We are constantly working 
to identify and address potential risks long before there is a problem. 
We have achieved a greater level of collaboration with our workforce 
and are always enhancing our safety culture.
    Congress has helped in our efforts by passing the FAA 
reauthorization earlier this year. I want to thank the members of this 
committee for their role in this major accomplishment. The 
reauthorization gives the dedicated employees of the FAA greater 
financial guidance and it gives greater stability to our programs.
    All of this is vital to keeping the economic engine of civil 
aviation at full capacity. It helps expand on the 10 million jobs and 
1.3 trillion dollars that civil aviation already contributes to the 
American economy each year. Thank you again.
    Now, I would like to share a little about my background with you 
today.
    I have spent my entire career in transportation with rewarding 
professional experiences in both the public and private sectors. I held 
senior policy positions at the U.S. Department of Transportation under 
President Clinton. There, I gained valuable insight into the day-to-day 
operations of many Federal agencies, including the FAA.
    Later, I was a managing director for transportation with the Salt 
Lake Olympic Committee. This experience taught me that an immovable 
deadline can be extremely powerful in motivating and in focusing a team 
toward a common objective.
    More recently, in the private sector, I led a large transportation 
technology services company. I managed the operations of a global 
organization and a diverse and technical workforce, to ensure that we 
met our financial targets. I came to develop a great appreciation for 
the benefits of mission-focused partnerships between government and 
business.
    Two years ago I returned to the Federal government, where I have 
had the opportunity to serve as Deputy Administrator of the FAA, and 
now, as Acting Administrator. I am honored that President Obama has 
nominated me to lead this great agency.
    In the last two years I have focused on positioning the FAA to 
deliver NextGen--the Next Generation Air Transportation System. We 
recently established a new organization within the agency to focus on 
implementing major technology programs. This will improve the 
coordination among NextGen initiatives, helping us usher them from the 
drawing board to live operation.
    What we do over the next several years is going to determine the 
course of aviation in this country for decades to come. That is why it 
is critical that the FAA work closely with Congress, other government 
agencies, all the components of the aviation industry, and the 
communities they serve, as we lay the foundation for the future.
    NextGen is the total transformation of the way we handle air 
traffic here and around the world. We are moving from radar to 
satellites, from radios to data messages and from airways that zig-zag 
the country to more direct routes. We need public-private collaboration 
to create this new way of doing business.
    NextGen means enhanced safety, greater access to airports, a 
smaller impact on the environment and more predictable schedules for 
travelers. And we're already seeing these benefits in metro areas 
around the country now.
    As we move forward, I have asked my senior leadership to focus on 
three main areas this year. First, we need to make the safest aviation 
system in the world even safer and smarter. Second, we need to realize 
even more benefits from NextGen today. And third, we need to make sure 
that we empower our 48,000 FAA employees to embrace innovation and to 
work efficiently.
    Mr. Chairman, I am honored by the trust the President has placed in 
me as his nominee. If confirmed, I pledge to continue to enhance the 
safety of our system for the traveling public and to guide the FAA 
through the many challenges that lie ahead.
    I would like to thank this Committee again for its consideration of 
my nomination, and I look forward to continuing a close working 
relationship. I am pleased to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (include and former names or nicknames used): Michael Peter 
Huerta, Mike Huerta.
    2. Position to which nominated: Administrator, Federal Aviation 
Administration.
    3. Date of nomination: March 27, 2012.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 800 Independence Avenue, SW Room 1010, Washington, DC 
        20591.

    5. Date and place of birth: November 18, 1956; Riverside, 
California.
    6. Provide the name, position and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Ann L. Sowder, Financial Planner, Sagemark Consulting 
        (A Division of Lincoln Financial Advisors), 8219 Leesburg Pike, 
        Suite 200, Vienna, VA 22182; child: Matthew Sowder Huerta, age 
        15.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Woodrow Wilson School of Public and International Affairs, 
        Princeton University, MPA, International Relations, 1980.

        University of California at Riverside, BA, Political Science, 
        1978.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs and any non-managerial jobs that relate to the 
position for which you are nominated.

        December 2011 to present, Acting Administrator, Federal 
        Aviation Administration.

        July 2010 to December 2011, Deputy Administrator, Federal 
        Aviation Administration.

        April 2009 to June 2010, President, MPH Consulting, LLC.

        April 2008 to March 2009, Executive Vice President and Group 
        President, Transportation Solutions, Affiliated Computer 
        Services, Inc.

        June 2005 to April 2008, Senior Vice President and Managing 
        Director, Transportation Solutions Affiliated Computer Systems, 
        Inc.

        March 2002 to June 2005, Senior Vice President and Managing 
        Director, Transportation Systems and Services, Affiliated 
        Computer Services, Inc.

        April 2001 to March 2002, Vice President, Marketing and 
        Business Development

        Lockheed Martin IMS, sold in August 2001 to Affiliated Computer 
        Services, Inc.

        September 2001 to March 2002, Managing Director, Transportation 
        Communications, Salt Lake Organizing Committee for the Olympic 
        Winter Games of 2002 (Loaned Executive from Affiliated Computer 
        Services, Inc.)

        October 1999 to April 2001, Director, Federal Government 
        Relations, Salt Lake Organizing Committee for the Olympic 
        Winter Games of 2002.

        September 1998 to April 2001, Principal, Cambridge Systematics, 
        Inc.

        July 1998 to September 1998, Independent Consultant.

        January 1997 to June 1998, Chief of Staff, Office of the 
        Secretary, U.S. Department of Transportation.

        May 1993 to January 1997, Associate Deputy Secretary of 
        Transportation, Director, Office of Intermodalism, U.S. 
        Department of Transportation.

        January 1989 to April 1993, Executive Director, Port of San 
        Francisco.

        March 1986 to January 1989, Commissioner, New York City 
        Department of Ports, International Trade and Commerce (The 
        agency name was changed twice during my tenure and was also 
        known as New York City Department of Ports and Trade and New 
        York City Department of Ports and Terminals).

        July 1980 to March 1986, Consultant, Supervising Consultant, 
        Manager, Coopers and Lybrand Management Consulting Services.

        June 1979 to September 1979, Federal Summer Intern, U.S. 
        Mission to N.A.T.O., U.S. Department of Defense.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        Chair, Oversight Committee, National Cooperative Freight 
        Research Program, Transportation Research Board.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        President, MPH Consulting, LLC, April 2009 to present (company 
        has been inactive since June 2010).

        Member, Advisory Board, Kapsch TrafficCom Holding Corporation, 
        June 2009 to March 2010.

        Consultant, Securing America's Future Energy, May 2009 to March 
        2010.

        Chairman, Board of Directors, Intelligent Transportation 
        Society of America, June 2009 to January 2010.

        Elder, Chevy Chase Presbyterian Church, May 2007 to May 2010.

        Deacon, Chevy Chase Presbyterian Church, May 2004 to May 2007.

        Chair, Oversight Committee, National Cooperative Fright 
        Research Program, Transportation Research Board, 2007 to 
        January 2010.

        Consultant, Mark IV IVHS, June 2009.

        Consultant, Chicago 2016, April 2009.

        Member, Board of Advisors, College of Engineering, Center for 
        Environmental Research and Technology University of California, 
        Riverside, 1995 to February 2012.

        Executive Vice President, Affiliated Computer Services, Inc., 
        April 2008 to March 2009,

    12. Please list each membership you have had during the past ten 
years or currently hold in any civic, social, charitable, educational, 
political, professional, fraternal, benevolent or religious 
organization, private club, or other membership organization. Please 
note whether any such club or organization restricts membership on the 
basis of sex, race, color, religion, national origin, age, or handicap.

        Member, The City Club of Washington, 1993 to April 2012.

        Member, Chevy Chase Presbyterian Church, 2003 to present.

        Cubmaster, Cub Scout Pack 52, 2007-2008.

        Member, Train Collectors Association, 2005 to present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        January 1997 to June 1998, Chief of Staff, Office of the 
        Secretary, U.S. Department of Transportation.

        May1993 to January 1997, Associate Deputy Secretary of 
        Transportation; Director, Office of Intermodalism, U.S. 
        Department of Transportation.

        I have no outstanding campaign debts.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    Contributions:




    Dennis Herrera for Mayor (San    12/2/2010         $500
     Francisco, CA)
    Rush Holt for Congress           5/20/2009       $1,000
    Obama for America                9/30/2008       $2,300
    Josh Zeitz for Congress          9/23/2008       $2,300
    Linda Stender for Congress       6/20/2008       $2,300
    Friends of Mark Warner            4/4/2008         $500
    Friends of Jim Oberstar          3/21/2008         $500
    Josh Zeitz for Congress         11/11/2007       $2,300
    Hillary Clinton for President   10/12/2007       $2,300
    Linda Stender for Congress       9/28/2007       $2,300
    Mitt Romney for President         4/2/2007       $2,300
    Linda Stender for Congress       6/29/2006         $500
    Menendez for Senate              4/10/2006         $500
    Menendez for Congress             4/7/2005         $500
    Democratic National Committee     4/5/2006       $2,500
    National Voter Coalition        10/10/2005       $1,000
    Democratic National Committee   10/25/2004       $2,000
    Ameripac: Fund for a Greater     6/25/2004       $1,000
     America
    Mitt Romney for Governor (MA)    4/22/2004         $500
    Mitt Romney for Governor (MA)    11/2/2003         $500
    Lipinski for Congress            5/13/2003         $500
     Committee
    Mitt Romney for Governor (MA)   10/24/2002         $500
    Victory 2002                     9/21/2002       $1,000
    Steve Westly for Controller      6/21/2002       $1,000
     (CA)
    Torricelli for U.S. Senate        5/9/2002       $1,000


    I have not held any offices with, nor rendered services to, a state 
or national political party or election committee during the last ten 
years.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements: None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Following is a listing of relevant speeches:

        World Aviation Training Symposium, ``The Next Level of 
        Training'' (04/17/2012).

        Houston Metroplex Press Event, ``Satellite-Based Routes in 
        Houston Improve On-Time Flights, Enhance Safety and Fuel 
        Efficiency'' (04/04/2012)

        Sun N' Fun, ``Sun N' Fun Meet the Administrator'' (03/30/2012)

        Oakland Metroplex Press Availability, ``More Direct Routes with 
        NextGen'' (03/19/2012)

        2012 Women in Aviation Conference, ``Remarks'' (03/09/2012)

        37th Annual FAA Aviation Forecast Conference, ``Growing with 
        NextGen'' (03/08/2012)

        Atlanta and Charlotte Metroplex Design & Implementation 
        Kickoff, ``Atlanta and Charlotte Metroplex Design & 
        Implementation '' (02/29/2012)
        American Association of State Highway and Transportation 
        Officials, 2012 AASHTO Washington Briefing, ``How States Have 
        Fostered NextGen'' (02/27/2012)

        Commercial Space Transportation Conference, ``Commercial Space 
        Transportation'' (02/16/2012)

        Archie League Medal of Safety Awards Banquet, ``Communicating 
        for Safety'' (02/02/2012)

        Fort Lauderdale International Airport Runway Expansion 
        Groundbreaking, ``Ft. Lauderdale International Airport Runway 
        Expansion'' (01/23/2012)

        New Horizons Forum, ``NextGen: Transforming our National 
        Airspace System into the Next Century of Flight'' (01/10/2012)

        Press Conference, ``Pilot Flight and Duty Time'' (12/21/2011)

        2011 Federal Highway Administration Civil Rights Symposium, 
        ``Assuring Equal Access to Aviation Business Opportunities'' 
        (12/08/2011)

        Diversion Forum, ``Proposed Recommendations'' (12/01/2011)

        NextGen Advisory Committee, ``FAA Report'' (09/29/2011)

        U.S.-China Aviation Symposium, ``Meeting the Challenges of the 
        Future'' (09/28/2011)

        Global Air Navigation Industry Symposium (GANIS). ``Towards a 
        Seamless Global Aviation System'' (09/23/2011)

        National Hispanic Coalition of Federal Aviation Employees 
        Annual Training Conference. ``What I Know for Certain'' (08/02/
        2011)

        Air Traffic Control Association, ``NextGen--A Worthy Investment 
        in Our Nation's Future'' (05/18/2011)

        China Civil Aviation Development Forum, ``Working Together for 
        NextGen'' (05/11/2011)

        IT/ISS Conference, ``Cybersecurity and NextGen'' (03/15/2011)

        UC Davis, ``Aviation Noise & Air Quality'' (02/28/2011)

        Wichita Town Hall, ``Something Extraordinary'' (02/10/2011)

        Regional Plan Association, ``Jump Starting the Discussion'' 
        (01/27/2011)

        ATCA 55th Annual Conference and Exposition. ``Moving Forward 
        with NextGen'' (10/26/2010)

        Sixth Triennial Fire and Cabin Safety Research Conference. 
        ``Tangible Benefits'' (10/20/2010)

        Recovery Act Press Event, ``Groundbreaking of New Air Traffic 
        Control Tower'' (10/18/2010)

        NextGen Conference, ``American Association of Airport 
        Executives '' (10/04/2010)

        Jeppesen Connect Seminar, ``Filled with Reasons to 
        Participate'' (09/30/2010)

        RTCA Annual Forum, ``Building Bridges that Last'' (09/22/2010)

        National Black Coalition of FAA Employees National Convention, 
        ``Respect and Consideration'' (09/15/2010)

        Bemidji Terminal Expansion, ``A Bright Future'' (07/24/2010)

        National Hispanic Coalition Conference, ``United We Stand'' 
        (07/14/2010)

        16th ITS World Congress; Stockholm, Sweden (09/21/2009).

        International Bridge, Tunnel and Turnpike Association, Board of 
        Directors; San Francisco, CA (04/16/2009).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental on non-
governmental capacity and specify the date and subject matter of each 
testimony.

        March 22, 2012--Testimony as Acting Administrator, Federal 
        Aviation Administration, before the Subcommittee on 
        Transportation, Housing and Urban Development, and Related 
        Agencies, Committee on Appropriations, United States House of 
        Representatives, at a hearing on the Administration's FY 2013 
        budget request.

        October 5, 2011--Testimony as Deputy Administrator, Federal 
        Aviation Administration, before the Subcommittee on Aviation, 
        Committee on Transportation and Infrastructure, United States 
        House of Representatives, at a hearing on benefits of the Next 
        Generation Air Transportation System.

        January 26, 2010--Testimony as nominee to be Deputy 
        Administrator of the Federal Aviation Administration, 
        Department of Transportation, before the Committee on Commerce, 
        Science, and Transportation, United States Senate, at a hearing 
        to consider nominations.

        September 9, 2002--Testimony on behalf of the Coalition for 
        America's Gateways and Trade Corridors before the Subcommittee 
        on Surface Transportation and Merchant Marine, Committee on 
        Commerce, Science, and Transportation, United States Senate, 
        and the Subcommittee on Transportation, Infrastructure and 
        Nuclear Safety, Committee on Environment and Public Works, 
        United States Senate, on Freight Transportation and Intermodal 
        Connections.

        March 13, 1997--Testimony as Associate Deputy Secretary of 
        Transportation before the Subcommittee on Transportation and 
        Infrastructure, Committee on Environment and Public Works, U.S. 
        Senate, on reauthorization of the surface transportation 
        program.

        February 24, 1997--Testimony as Associate Deputy Secretary of 
        Transportation before the Subcommittee on Government 
        Management, Information and Technology, Committee on Government 
        Reform and Oversight, U.S. House of Representatives, on the 
        Department of Transportation's ``Year 2000'' activities.

        June 19, 1995--Testimony as Associate Deputy Secretary of 
        Transportation before the Subcommittee on Government 
        Management, Information and Technology, Committee on Government 
        Reform and Oversight, U.S. House of Representatives, at a 
        hearing in Chicago, IL on streamlining Federal field office 
        structures.

        May 17, 1993--Testimony as nominee to be Associate Deputy 
        Secretary of Transportation before the Committee on Commerce, 
        Science, and Transportation, U.S. Senate, at a hearing to 
        consider nominations.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The FAA's mission is to provide the safest, most efficient 
aerospace system in the world. It does that as a regulator and as an 
operator. It works in collaboration with key stakeholders, including 
the private sector. It relies on sophisticated technology. The agency 
is a large and complex organization and it has an ambitious agenda for 
transitioning to a next generation air traffic control system, while 
continuing to operate on a daily basis the largest air traffic system 
in the world.
    In my career, I have worked both in government and the private 
sector. Since July 2010, I have served as FAA Deputy Administrator and 
have developed a broad understanding of the agency and its mission. In 
addition to my role in helping to ensure that the FAA's safety mission 
is carried out, I have had the primary responsibility for overseeing 
the FAA's deployment of the Next Generation Air Traffic System 
(NextGen) and played a major role in the FAA's Foundation for Success 
initiative, which reorganized the agency to improve its efficiency and 
effectiveness.
    I also held senior policy positions at the U.S. DOT, which gave me 
valuable insight into how Federal agencies work and, in particular, the 
important role played by the FAA.
    Before joining the FAA, I led a large transportation technology 
services organization. In that capacity, I had responsibility for the 
operations of a large, global organization, managing a diverse and 
technical workforce and, of course, ensuring that the organization met 
its financial targets. Our customers were for the most part state and 
local government agencies and we provided critical systems that were 
central to them successfully executing their missions.
    I am excited about the prospect, if confirmed, of leading the FAA 
at a critical time in its history. The agency is managing a major 
technological transformation at the same time its workforce is going 
through a generational change. The decisions that need to be made in 
the next five years will set the course of the FAA more many years to 
come.
    I believe that my background and experience will assist the FAA in 
carrying out its mission in the coming years.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As Administrator, I would serve as the chief executive of the 
agency with the primary responsibility to ensure adherence to the best 
management processes. Effective management of a large organization 
means that the leaders of that organization need to ensure that 
reporting systems are in place to provide them the visibility they need 
into what is going on in the organization. At the same time, they need 
to ensure that appropriate controls are in place.
    Before joining the FAA, I served as an officer of a Fortune 500 
corporation and have a good understanding of the dynamics of large 
organizations. It is important to be able to delegate and empower line 
managers but at the same time, to recognize that ultimate 
responsibility rests at the top. I have found that managing to specific 
and quantifiable targets is an effective means of building 
accountability, but also innovation. In addition, it is important to 
spend time engaging with the workforce throughout the organization. 
Talking to line managers and front-line employees informally can 
provide important insights about what is going on.
    As Deputy Administrator at the FAA, I have focused on improving the 
agency's program management practices and its delivery of services. As 
a result, the agency has stabilized a troubled deployment of a new 
technology system, getting it back on track and well on the way to a 
successful deployment nationwide.
    If confirmed, I look forward to working closely with the FAA's 
employees and stakeholders, and particularly Congress, in meeting the 
agency's objectives in the coming years.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Maintaining and building upon an exceptional record of 
        aviation safety. Commercial aviation is an exceptionally safe 
        mode of transportation but it is important that we continue to 
        find ways to make the system even safer and smarter. The FAA 
        has in recent years begun to focus more on identifying risk 
        factors that could affect safety in the future. The idea is to 
        look for clues that might prevent an accident before it 
        happens. This proactive approach uses science to analyze risks 
        in the system as well as historical accident data. By combining 
        the two, we get a more complete picture of potential problems 
        and ways to address them. As traffic increases and technologies 
        become more advanced, this approach is essential to maintaining 
        the highest levels of safety.

        2. Successfully deploying NextGen. The FAA's deployment of 
        NextGen is critical to sustaining the contribution of aviation 
        to the U.S. economy. Today, aviation accounts for $1.3 trillion 
        in economic activity annually and accounts for over 10 million 
        jobs. That number is expected to grow dramatically in the years 
        ahead. NextGen will integrate new technologies into our air 
        traffic system transforming how we fly. The result will be 
        reduced delays, savings in fuel consumption and lower carbon 
        emissions, and we need to find ways to accelerate these 
        benefits. This transformation combines new technology with more 
        efficient operations and management. It is much more than a new 
        computer system. It requires the FAA to change how it hires and 
        trains people, and how they do their jobs. And all this must be 
        done while the aviation system continues to operate safely 24 
        hours a day, 7 days a week, 365 days a year.

        3. Practicing fiscal responsibility while empowering and 
        engaging employees. Every government agency is being called 
        upon to find ways to carry out its mission as effectively as 
        possible and at the lowest cost to the taxpayers. It is 
        essential that the FAA focus on finding ways to reduce its 
        operating costs and continually improve efficiency. Continued 
        collaboration with and among employees will result in greater 
        efficiency and effectiveness, while also moving the agency 
        toward its goal of becoming a workplace of choice.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    While employed by Affiliated Computer Systems, Inc., (ACS) I 
participated in a deferred compensation plan and, at the time I 
enrolled, I elected to receive deferred compensation in five annual 
installments following my departure from ACS (March 2009). In 2010, ACS 
was acquired by Xerox Corporation. I will receive two remaining annual 
payments from ACS, A Xerox Company, with the final payment expected in 
April 2013.
    During my employment at ACS, I was granted ACS stock options. These 
were converted to Xerox Corporation stock options upon Xerox's 
acquisition of ACS in 2010. I still hold Xerox stock options, and 
intend to continue to hold them as market conditions warrant.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association, or other organization during your appointment? If so, 
please explain.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    3. Indicate any investments, obligations, liabilities, or other 
relationships, which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for breach of ethics by, 
or been the subject of a complaint to any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were and officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation. If so, please explain.
    I am aware of three suits that were filed against my previous 
employers or that named me in an official capacity. None of these 
involved any allegation related to my own conduct.
    In my official capacity as Commissioner of the New York City 
Department of Ports and Trade, I was named in two suits against the 
city in the late 1980s involving nonpayment of rent at port facilities. 
I had no involvement in the litigation of these cases. The NYC 
Department of Ports and Trade may have been a party to other legal 
actions, but I had no involvement in any such cases.
    In 1994 or 1995, I was deposed in a sexual harassment case that an 
employee had brought against the City and County of San Francisco. I 
had been the Executive Director of the Port of San Francisco until 
April 2003, and I testified that I had met the employee only once and 
had no knowledge of the complaint. The Port of San Francisco may have 
been a party to other legal actions, but I had no involvement in any 
such cases.
    During the time when I was an officer of Affiliated Computer 
Services, Inc., a Fortune 500, publicly traded company with extensive 
domestic and international operations, the company may have been a 
party to administrative proceedings and litigation; however, I had no 
involvement in any such cases.
    4. Have you ever been convicted (including please of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    N/A.
                   d. relationship with the committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                      resume of michael p. huerta
Professional Experience
Acting Administrator--Federal Aviation Administration, Washington, 
D.C., December 2011 to present.

Deputy Administrator--Federal Aviation Administration, Washington, 
D.C., July 2010 to December 2011--Acting chief executive of the agency 
responsible the safety and efficiency of the largest aerospace system 
in the world. Oversees a $15.9 billion dollar budget, over 47,000 
employees and is focused on ensuring the agency and its employees are 
the best prepared and trained professionals to meet the growing demands 
and requirements of the industry. Responsible for the FAA's multi-
billion dollar NextGen air traffic control modernization program as the 
United States shifts from ground-based radar to state-of-the-art 
satellite technology.

President--MPH Consulting, LLC, Washington, D.C., April 2009 to June 
2010--Consultant on transportation policy, technology and financing. 
Clients include international technology companies and not-for-profit 
organizations.

Executive Vice President and Group President, Transportation 
Solutions--Affiliated Computer Services, Inc., Washington, D.C., April 
2008 to March 2009

Senior Vice President and Managing Director, Transportation Solutions--
Affiliated Computer Systems, Inc., Washington, D.C., June 2005 to April 
2008

Senior Vice President and Managing Director, Transportation Systems and 
Services--Affiliated Computer Services, Inc., Washington, D.C., March 
2002 to June 2005--Chief executive of ACS' transportation technology 
services line of business. ACS is a premier provider of diversified 
business process outsourcing and information technology services and 
solutions to government and commercial clients worldwide. The company 
provides a wide variety of revenue collection, regulatory compliance 
and technology services to the transportation industry throughout the 
world. Products and services include:

  <bullet> System integration and customer service center operations 
        for electronic toll collection systems including E-ZPass in the 
        northeastern United States and FasTrak in California

  <bullet> Fare collection and parking revenue control and management 
        systems to public transit authorities, airports, and cities

  <bullet> The nationwide PrePass electronic commercial vehicle pre-
        clearance program

  <bullet> A full suite of photo enforcement solutions designed to 
        promote road and highway safety

  <bullet> System integration and design of PierPASS, a congestion fee 
        collection program used at the Ports of Los Angeles and Long 
        Beach, California.

Vice President, Marketing and Business Development--Lockheed Martin 
IMS, Transportation Systems and Services Washington, D.C., April 2001 
to March 2002--Responsible for expanding IMS' leadership position in 
intelligent transportation marketplaces such as electronic toll 
collection, commercial vehicle operations, and electronic payment 
systems.

Consultant, Director, and Managing Director--Salt Lake Organizing 
Committee for the Olympic Winter Games of 2002, Washington, D.C. and 
Salt Lake City, Utah, July 1998 to April 2002--Served in various 
positions as an independent consultant and an employee of the 
organization. Responsible for (a) designing and running, in cooperation 
with the Utah Department of Transportation, the highly successful 
Travel Demand Management (TDM) program used during the XIX Olympic 
Winter Games held in Utah during February 2002, and (b) securing 
funding for a $250 million program of temporary and permanent 
transportation projects to support the transportation requirements of 
the Games.

Principal--Cambridge Systematics, Inc., Washington, D.C., September 
1998 to April 2001--Principal of an employee-owned, nationally known, 
transportation consulting firm. Responsibilities included new business 
development for freight and intermodal transportation. Services 
provided included freight transportation planning, transportation 
planning for special events, project financing, and strategic planning.

Chief of Staff, Office of the Secretary--United States Department of 
Transportation, Washington, D.C., January 1997 to June 1998--
Responsibilities included serving as chief strategist and policy 
advisor to the Secretary of Transportation and day-to-day manager of 
the Office of the Secretary. Involved oversight of high-profile 
projects, major initiatives, and federal government financial 
assistance.

Associate Deputy Secretary of Transportation and Director, Office of 
Intermodalism--United States Department of Transportation, Washington, 
D.C., May 1993 to January 1997--Responsibilities included coordinating 
federal policy on intermodal transportation and initiating policies to 
promote efficient intermodal transportation in the United States. 
Selected accomplishments:

  <bullet> $400 million federal loan as part of financing package for 
        $1.9 billion Alameda Corridor port access project in Southern 
        California. The federal loan was an innovative, direct loan 
        which completed the financing package and enabled this project 
        to move forward.

  <bullet> Airport access projects in San Francisco and New York which 
        involved blending airport, transit and highway revenues in new 
        ways to provide mass transit links to these airports.

Executive Director--Port of San Francisco, January 1989 to April 1993--
Chief executive of the port, a self-supporting public agency that 
develops and administers maritime facilities, commercial development, 
and fishing facilities on San Francisco's waterfront. Completed a port 
strategic plan, which led to substantially increased container shipping 
volume. Initiated planning and construction for modernizing and 
expanding the port's shipping terminals and fish handling facilities. 
Completed an award-winning public access pier in downtown San 
Francisco.

Commissioner--New York City Department of Ports, International Trade 
and Commerce, March 1986 to January 1989--Chief executive of the city 
department responsible for developing and administering marine, air, 
rail and truck facilities throughout the city; promoting international 
trade and investment; operating and regulating the city's public 
markets.

Management Consultant--Coopers & Lybrand, Washington, D.C., July 1980 
to March 1986--Consultant serving a variety of public and private 
sector clients in economic studies, feasibility analysis and 
international trade services.
Education
MPA 1980, Woodrow Wilson School of Public and International Affairs, 
Princeton University BA 1978, University of California, Riverside

    Senator Cantwell. Again, Mr. Huerta, thank you for your 
willingness to serve and thank you for your testimony this 
morning.
    I'd like to start. You mentioned obviously safety, which is 
a high priority. As I mentioned earlier in my statement, we had 
oversight hearings on this issue. There are several rulemakings 
that are required under the FAA Extension Act of 2010 and some 
of those rulemakings for new flight and duty time rules have 
been completed and others haven't.
    In the hearings that we had in the aftermath of the Colgan 
3407 flight, one of the issues identified was the shortcoming 
of pilot training and co-pilot training. So what is the status 
of that rulemaking on pilot training? When can we expect those 
rules to be released? How much time will be given to airlines 
to comply? And when can we expect that transformation to be in 
place?
    Mr. Huerta. We continue to work on a final rule to update 
our commercial pilot training requirements. This is a very 
important rule. It's something that I care very deeply about.
    I was distressed to learn of the time involved in moving 
this rule forward and I've made it a very high personal 
priority to do all we can to expedite the development of this 
rule. The initial rulemaking was under way before the passage 
of the Airline Safety and FAA Extension Act of 2010. Subsequent 
to the passage of that statute we had to issue a supplemental 
notice of proposed rulemaking. We received a very large number 
of comments in response to that and we have reviewed those 
comments. I've instructed my staff to work diligently and 
quickly in the completion of the rule so that we can get it out 
there for final implementation.
    We expect that we will complete that by October 2013. I 
know that's a long time and we're doing all that we can to move 
it as quickly as possible.
    Senator Cantwell. Mr. Huerta, what can we do in the 
meantime? 2013 is a long time from now as it relates to this. I 
mean, this seems to be something we needed in 2011.
    Mr. Huerta. The FAA will continue to work closely with 
industry to find out what we can do in advance of rulemaking. 
Focusing on training is a very important priority and I want to 
work closely with industry to do that.
    Senator Cantwell. What about pilot commute times? That was 
one of the issues in the Colgan Air case, the amount of time in 
commuting, pilots showing up after long distance travel.
    Mr. Huerta. Every pilot has an important responsibility to 
report to work fit for duty and safe to fly. This is one of the 
things that was a high priority to address in the pilot fatigue 
rule and I think that there is a responsibility that we all 
have to ensure that pilots can report to work fit for duty.
    Senator Cantwell. What else can we do to address some of 
these issues, given that, obviously, we want to implement the 
right rules, but 2013 is a long time.
    Mr. Huerta. As I said, we are doing everything that we can. 
It's a large and complex rule and I pledge my own personal 
commitment to push our team as quickly as we can to get this 
done expeditiously.
    Senator Cantwell. Thank you. I may have questions on that 
coming up.
    But, Mr. Chairman, would you like to? Ranking Member 
Hutchison?
    Senator Hutchison. Well, let me start with the Office of 
Special Counsel and also the relatively large number, according 
to the Special Counsel, of whistleblowers at the FAA. What 
oversight measures are you putting in place in response to that 
report, or what measures are you taking to assure that there is 
some way to assure that an air traffic controller isn't taking 
a nap on the job or leaving the tower? Those kinds of things 
are obviously very troubling.
    How are you dealing with that and putting a tighter rein on 
the information flow?
    Mr. Huerta. Sure. There are two things that you suggest, 
Ranking Member Hutchison. First and foremost, every FAA 
employee has a responsibility to ensure the safety of the 
traveling public. That means that they need to report to work 
fit for duty all the time every day.
    The second thing is that we need to have an environment and 
a climate where anyone who sees that there is a potential 
safety risk in the system feels that no crash is in a safe 
environment to elevate that to higher leadership. In doing that 
it ensures that we're able to take strong and appropriate 
action to deal with safety risks that might exist in the 
system.
    A couple of years ago we put in place a whistleblower 
office within the FAA. We actually set it up with the 
assistance of a former FAA whistleblower. What we wanted to do 
was ensure that it was clear where people can go if they have 
concerns about safety, about compliance with rules, and 
everything that's associated with that.
    I think that that has done a lot to create an appropriate 
environment and quick responses. As a result of doing this, 
we've identified areas where--in one instance, we completely 
changed out the management of a facility so that we could 
ensure that an appropriate focus was being given to safety.
    I think that every employee of the FAA bears a specific 
responsibility. I think it's a duty. It's my expectation that 
if there are challenges in the system, if employers see things 
that represent a risk to safety, then they have to be brought 
forward so that we can deal with them and deal with them 
expeditiously.
    Senator Hutchison. Mr. Huerta, one of the things that you 
read about and hear about are how difficult it is to discipline 
and fire if necessary a Federal employee because there are so 
many requirements and it's a bureaucratic tough situation. All 
of us have--well, not all of us, but I've certainly been in a 
Federal agency myself and I know there are a lot of rules and 
sometimes it's been difficult even if someone was not doing 
their job and had all the requirements.
    I'm asking you if you have had trouble with these safety-
essential personnel, like an air traffic controller or a 
mechanic, have you had trouble with the bureaucratic 
constraints or union activity that would keep you from taking 
an action that you felt is necessary to assure that a person 
not doing the job is not able to stay on the job?
    Mr. Huerta. All of us as managers of the FAA, and in fact 
in any Federal agency, have a special responsibility to ensure 
that the requirements and expectations for our workforce are 
absolutely clear and that we document when we see infractions 
and when we see that standards are not being complied with, and 
we do do that. That's something that I think is an important 
first step in ensuring that these whistleblower complaints are 
appropriately dealt with.
    The FAA takes very seriously its safety-sensitive 
responsibility and, with appropriate documentation and 
appropriate leadership, if we've found problems we have been 
able to deal with them.
    Senator Hutchison. Thank you.
    I do have another quick question, and that is what steps 
are you taking to live within the lower budgets that we're 
going to have across the board until we get the deficits down 
and the debt under control? What measures are you taking that 
would suggest that you could do things more efficiently and 
that you're doing the part for your agency?
    Mr. Huerta. Well, first of all I'd like to thank this 
committee and the appropriators for the support they've shown 
the FAA. But you've given us a challenge, and that challenge 
is, as you suggest, Senator Hutchison, the need to do things as 
effectively and efficiently as possible.
    We have within our organizational structure embarked on a 
major restructuring where we've identified how to minimize 
administrative costs and find greater efficiencies to operating 
the agency. We've identified savings in excess of $100 million. 
I think that's an important step.
    The other thing that we're doing----
    Senator Hutchison. Give me a couple of examples?
    Mr. Huerta. A lot of that is in technology systems, in 
general and administrative systems for the agency. Technology 
benefits are huge in a large complex agency such as ours, where 
we can deal with ensuring that there are not duplicative 
systems and that we're also taking advantage of our size and 
leveraging that as we go through major procurements for these 
sorts of systems. So that's one very important area where we've 
been quite successful. But we can do more.
    The other thing relates to the delivery of NextGen. This 
committee and the Congress in general have made NextGen a very 
high priority, but that means we have a responsibility to 
develop and implement it as efficiently as possible and that 
means creating priorities. We've established in our NextGen 
implementation plan what our specific goals are that we want to 
accomplish both in the midterm and the long-term. To sum it up, 
the major focus is on how do we deliver benefits early? If we 
deliver benefits early to the users of the system, it means for 
an airline that they can reduce track miles flown--that's a 
reduction in fuel. Fuel is a reduction in cost. It's also a 
reduction in emissions. And it benefits communities because 
they have a more efficient system with less noise. It's those 
things that we need to keep our focus on.
    Senator Hutchison. Thank you very much.
    Senator Cantwell. Chairman Rockefeller, would you like to?
    Senator Lautenberg. Yes----
    Senator Cantwell. I'm sorry. I think the Chairman's going 
to ask some questions.
    Senator Lautenberg. Well, that's OK.
    [Laughter.]
    Senator Cantwell. Thank you, Senator Lautenberg.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Thank you, Chairman Cantwell, very much.
    Mr. Huerta, I'm sort of aghast here, because we had a very 
good talk in my office and you talked to me very directly, 
answered questions very directly, and this morning you seem to 
be answering them as if scripted by OMB. I have to be frank 
about that because this is not a favorable impression.
    You used the word ``expeditiously,'' ``diligence'' all the 
time to answer the questions. Chairman Cantwell asked you a 
question about aviation safety and the standards, actually 
required December 2011. We're now finding out that this cannot 
be done until 2013, and then an additional five years, so 
that's 2015. Then you just simply said: Well, we're working 
with the airlines and we'll be expeditious and diligent and do 
our very best. It's just not an answer at all.
    I want to know, what is it that makes it so difficult to 
get the airlines or the FAA to work together to get this done 
before 2015, indeed by 2013, if not by 2011, which is what we 
required in the law? What is your answer?
    Mr. Huerta. Chairman Rockefeller, as I mentioned, this is a 
very large and complex rulemaking, and no one is more 
frustrated than I am at the time it has taken----
    The Chairman. Please answer my question.
    Mr. Huerta. What we are doing is working through a large 
number of comments and ensuring that we can develop a rule that 
will stand the test of time and that will deliver on the 
benefits that we want. People are working very hard in getting 
it done, but we have a lot of comments. It's a complicated 
rule.
    The Chairman. So it's a complicated bill. There's a lot of 
comments. There's always a lot of comments. Washington draws 
lots and lots of comments. It's you and it's the airlines and 
it's the pilots. I don't understand why this is taking so long 
or why--don't talk to me about lots of comments and this is a 
complicated process. Everything is like that around here.
    Mr. Huerta. Mr. Chairman, I am very committed to getting 
this rule done.
    The Chairman. And I understand that. But what are you doing 
about it? So far I've heard that there are a lot of comments 
and it makes it more difficult. Now, so how do you weigh 
through this and get it? Don't wait until 2015. Lots of 
Lackawannas could happen by 2015.
    Mr. Huerta. Mr. Chairman, I will do all I can to direct my 
staff and provide the resources to get this done as quickly as 
possible.
    The Chairman. Well, let me just make it known for the 
record, and this is going to seem to be an unfriendly comment. 
As you know, I support your candidacy, but any Federal person 
making testimony before any committee of Congress has to have 
that testimony reviewed and cannot give it until it's approved 
by the Office of Management and Budget, and that is the same 
with yours. And that's what you're sounding like.
    I just can't live with ``I'm going to do everything I 
can.'' I want to know what it is that you will do to make sure 
it will happen. I'm sticking on this thing, 2015.
    Mr. Huerta. Mr. Chairman, once a week I meet with our 
safety organization and we go over every rule that we have 
pending. The questions that I ask are: Where is it, who is 
involved in it, what are the challenges that we have, and do 
you have resource problems? Are there legal challenges that 
you're running into? It creates a forum for us to work through 
what are very complex issues.
    I share your frustration. I want this to be done quickly.
    The Chairman. Well, air traffic controller fatigue, 4,000 
violations, we read about it in the Washington Post, required 9 
hours of rest. My question--I think I'm going to get the same 
answer: what's the agency done to address these violations, to 
make sure we don't hear more about this?
    I understand that you're standing up in an air traffic 
control tower or in one of the ground-based or underground-
based places and things are difficult and people get tired and 
all the rest of it. Nine hours of sleep helps, but please tell 
me what you are doing to make sure that this happens? I don't 
think that's that complicated.
    Mr. Huerta. It's not. What we did last year was we put in 
place a requirement, as you noted, Mr. Chairman, for nine hours 
of rest between shifts. To ensure compliance with it, we----
    The Chairman. Does that 9 hours include the time to get 
home?
    Mr. Huerta. It's a nine-hour rest opportunity, that's 
correct.
    The Chairman. So that means maybe six and a half hours and 
then an hour and a half commute.
    Mr. Huerta. It could mean 8 hours if you had 30 minutes 
each way.
    The Chairman. Right.
    Mr. Huerta. What we have done since then to ensure 
compliance is we conducted a review of a large number of 
clocking in of controllers, and we determined that, while the 
majority of controllers were in compliance with the nine-hour 
rest period, we did find that there were some controllers who 
were clocking in a few minutes early.
    In most cases they were a matter of a couple of minutes. 
None exceeded 30 minutes. In light of that, we at the agency, 
in conjunction with the National Air Traffic Controllers 
Association, last week issued guidance to everyone in air 
traffic control reminding them of the nine-hour rule.
    We are also now updating our timekeeping system so that 
they cannot physically clock in until the nine-hour requirement 
is met, and we will continue to focus on this.
    The Chairman. My time is up. I thank the chair.
    Senator Cantwell. Thank you, and I just want to go over the 
order of members because people have come in and out of the 
hearing room. We'll next call on Senator Thune, who's the 
ranking member on the Subcommittee, followed by Senator Begich, 
if Senator Boxer reappears, then Senator Lautenberg, then my 
other colleagues.
    So, Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Madam Chair. I want to thank you 
and the Ranking Member for holding the confirmation hearing 
today, and Mr. Huerta for appearing before the Committee as the 
nominee to be the next Administrator of the FAA.
    Aviation is an important part of our U.S. economy. It's 
obviously very important in my state of South Dakota. It 
contributes about $1.2 billion annually to the economy and 
employs 14,000 people. I think we have to acknowledge that FAA 
operates the largest and safest air space system in the world. 
As we know, since the mid-1990s the commercial air carrier 
accident rate has fallen by nearly 80 percent. Achieving that 
low of a U.S. air carrier accident rate while transporting 
almost 800 million passengers per year is no simple feat.
    But, having said that, even with the high rate of safety, 
improvements can be made, and last month's letter from the 
Office of Special Counsel, which cited 178 FAA disclosures, of 
which 97 were safety-related, is a startling reminder that 
safety's got to be a top priority.
    The agency faces several other future challenges, including 
reducing regulatory burdens, streamlining its operations, 
maintaining professionalism in its work force, and implementing 
the recently enacted FAA Modernization and Reform Act.
    So I appreciate, Mr. Huerta, hearing from you about your 
ideas on how to address those many challenges. I do want to 
quickly get your response to something. We have a bill, Senate 
bill 1956, the European Union Emissions Trading Scheme 
Prohibition Act that Senator McCaskill and I and others have 
introduced, which gives the Secretary of Transportation the 
authority to take the necessary steps to ensure America's 
aviation operators are not penalized by any system unilaterally 
imposed by the EU. We had a hearing about this recently in 
front of this committee and I'm wondering what your thoughts 
are about whether this legislation might help you in your 
negotiations with the European Union.
    Mr. Huerta. Senator Thune, thank you very much. The 
European Union's efforts to impose unilaterally an emissions 
trading scheme are something that we are very much in 
opposition to. We feel that the appropriate forum to work 
through this is the International Civil Aviation Organization 
and we've joined with many other countries to express our 
opposition and to make it clear to the Europeans that we oppose 
what they're trying to do and are prepared to take action as 
necessary in order to respond to that.
    ICAO is the appropriate forum and all options are on the 
table. While we're supportive of the goals of reducing 
aviation's emissions impact on the environment, we think that 
what the Europeans did is entirely the wrong way to go about 
it. The Europeans know that and we continue to work on that.
    Senator Thune. Wouldn't having a legislative solution give 
you additional leverage in confronting the Europeans on this 
issue and dealing with it?
    Mr. Huerta. I think the Europeans are well aware of the 
universal opposition that exists in this government to what it 
is that they're trying to do, and we continue to communicate 
that to them.
    Senator Thune. At the same time, you've got this thing 
already in effect, essentially, and lots of American air 
carriers covered by it and in many cases having to pass those 
costs on. It seems to me at least that the legislation would at 
least provide temporary relief from this until such time as you 
can work through the appropriate forum, if that's ICAO, to get 
the right resolution in place.
    So it just seems to me at least that it gives you one more 
piece of ammunition, one more tool, if you will, in dealing 
with the EU if you had Congress on the record and giving our 
air carriers in this country some relief from what is an unfair 
violation of international law and sovereignty of the United 
States.
    Mr. Huerta. Well, Senator, as I mentioned, I think that the 
fact that there is such widespread opposition in our government 
is quite significant. We are committed to working with Congress 
on how best to respond to it.
    Senator Thune. Well, let me ask you one other question 
quickly. There is a recent IG report that highlighted that the 
FAA has not yet established total program cost, schedule, or 
performance baseline for all of the six NextGen 
transformational programs. When does the agency plan to do 
this, since without baselining we will not have complete 
information about when these programs will be completed, what 
they will deliver, and how much they're going to cost the 
American taxpayer?
    Mr. Huerta. NextGen is a program that, as I talked about in 
my opening statement, is critical for the FAA to get right as 
we deploy the transformational aviation system of the future. 
My own background, as leader of a large technology company, I 
think has served me well as I've worked at the FAA.
    One of the first things that I did when I arrived at the 
agency a couple of years ago was to direct the establishment of 
a program management office, with the sole responsibility for 
delivering NextGen programs as their major area of focus. At 
the same time I strengthened our NextGen organization to ensure 
that they had the resources and the tools they needed to make 
tradeoffs, to establish priorities, and to ensure that the 
agency is meeting its NextGen commitments.
    Of the six transformational programs, three have been 
baselined and we are on track for meeting the commitments in 
those baselines. But we're trying to find the appropriate 
balance in how we mitigate risk based on developing the 
appropriate levels of information so that we know what we're 
getting into before we establish the baselines. We're very 
focused on delivering benefits and hitting our targets, and I 
think we're making good progress.
    Senator Thune. Do you have a schedule for the last three? 
You mentioned three that you are----
    Mr. Huerta. I'm sorry?
    Senator Thune. The other three of the six that you said 
that have not--that are not baselined, when do you expect? What 
do you expect in regard to those?
    Mr. Huerta. We would be happy to meet with your staff and 
go over each of the programs and where they are.
    Senator Thune. Thank you.
    My time has expired. Thanks.
    The Chairman. Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Huerta. Let me ask 
you a couple questions, one on avgas. As you know, the general 
aviation community from my State and Senator Thune's, others, 
it's very important, the rural aspect of it. But the EPA has 
issued an NPRM on avgas. We've heard a lot of comments. I'm 
sure FAA has also heard a lot of comments.
    Our concern is, and as you know, FAA is ultimately 
responsible for certifying the type of gas that goes into 
aviation or into airplanes. We are--I want to make it very 
clear that we are hopeful that there are no moves by EPA or FAA 
to phaseout avgas until there is truly an appropriate and 
economical drop-in substitute fuel. Can you comment on that?
    Mr. Huerta. Senator Begich, we share that concern. Avgas is 
unique. It is the remaining leaded fuel, but it meets the 
unique requirements that exist in general aviation. The FAA 
completely understands the importance of having reasonable 
alternatives before any effort is made to phaseout avgas. I'm 
very committed to working with EPA so as to ensure that that 
doesn't happen.
    Senator Begich. When you say reasonable, economical is part 
of that equation?
    Mr. Huerta. Certainly.
    Senator Begich. OK, good, because for us in Alaska it's 
truly, it's the highway in the sky. It's critical that we have 
the right ability. When we converted a much higher level of 
leaded gas to unleaded, which was our vehicles, it took many, 
many, many years to do that. It wasn't overnight. I'm worried 
that EPA has a different view of life here, that they can flip 
the switch and make it all magic. I'm glad that you have made 
the statement you just said, because I think you understand the 
FAA component of this and the aviation component of this. So 
thank you very much.
    Will you keep us, at least our office, informed if there 
are some milestones occurring that we need to be aware of, 
because I guarantee you we'll hear very quickly in Alaska and 
we want to make sure we're on top of this issue.
    Mr. Huerta. Absolutely, we'd be happy to.
    Senator Begich. Thank you.
    The other one is, we have this battle on a fairly regular 
basis. The administration in the 2013 budget had the $100 user 
fee on GA, general aviation users. I honestly think that is--
it's creating another system that doesn't need to be created. 
We have a per-gallon tax assessed. The aviation community is in 
support of it. It's already an existing system. It works well. 
It's creating another system where now it's a $100 user fee for 
certain GA users. I think it's just going to be burdensome. 
It's going to create another bureaucracy within FAA, and the 
reality is we already have a system that general aviation 
supports and always works with FAA on.
    So can you comment on that? I know it's a budget issue and 
I'm sure OMB has their views on it, but from a practical 
implication of how you implement it, it seems like it's 
creating another system that we don't need when we have a user 
fee tax that people have been accustomed to and have been 
supportive in the past of adjusting when necessary.
    Mr. Huerta. Senator Begich, the President put forward a 
proposal with the intent of finding better ways to share the 
costs of the operation of the aviation system with the users of 
the system. That was why it was included in his proposal for 
the fiscal 2013 budget. The appropriators have not seen fit to 
act on that. We understand that how we look at the long-term 
financing questions of the FAA is something that we need to do 
very much in consultation with Congress, and we look forward to 
continuing that conversation with you.
    Senator Begich. Great. I know from our end we'd obviously 
be happy to engage with you on that. I think the general 
aviation folks, aviation in general, I think always are happy 
to--if there is a process and they know the value comes back to 
the users in this case, they're always willing to sit down and 
work these issues out. So I look forward to that.
    Do you--I just want to follow up on what Senator Thune 
talked about on NextGen, if I can, and that is just very 
quickly, and that is you talked about the baselines, three more 
to go. If you were to say--if you could give a percentage of 
where do you think you're at with full implementation of 
NextGen in the level that we had asked for in the FAA 
reauthorization bill, where would you say we are? 10 percent, 
20 percent, 30 percent? Do you have a fair--in all the pieces--
I know there are multiple pieces, but if you could take a 
30,000 view looking down, where do you think we're at?
    Mr. Huerta. I think it's important to look at it in the 
context of there being both a geographic component to it, as we 
move it out across the country, and then there are varying 
levels of capability that it enables. We are making progress in 
both of these areas.
    We made a commitment to the industry to deploy one of the 
foundational technologies, a technology known as Automatic 
Dependent Surveillance Broadcast (ADS-B). We committed that it 
would be deployed throughout the country by 2013, and we are on 
track to deliver the ground infrastructure by 2013. This, as 
you know, is a technology that we first deployed in Alaska.
    Senator Begich. That's right.
    Mr. Huerta. And what it gives a pilot is much greater 
situational awareness. It gives us a very precise view of 
what's happening in the air space system. So we're well on 
track to delivery this.
    This year we're giving a particular focus on performance-
based navigation, which results in more precise routes that 
reduce for airlines the track miles flown and enables them to 
reduce costs on fuel. This is a high priority. What we're 
trying to do is reduce the deployment time for individual 
procedures from what would ordinarily be five to ten years down 
to three and sometimes 2 years. We're doing that in 
metropolitan areas all across the country.
    Later this summer, we will take a first step in deploying 
our DATACOM program. DATACOM is a transformational technology 
because what it addresses head-on is one of our principal 
challenges for efficiency as well as for maintaining safety, 
and that is to ensure that communications between controllers 
and pilots are accurate, precise, and delivered in a timely 
fashion. So we're on track for beginning the delivery of that 
program later on this year.
    We're making good progress, but I have to stress it's a 
long-term delivery program. We have milestones that go all the 
way out to 2025 for the delivery of NextGen and it's important 
to us that we hit those milestones and deliver the benefits to 
the users of the system.
    Senator Begich. Thank you very much. Thanks for your 
testimony. I'll look forward to supporting you in the final, 
but I just want to say thank you very much for coming here. 
Thanks for spending time with me yesterday on all the other 
issues we talked about.
    Senator Cantwell. Thank you, Senator Begich.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman.
    Mr. Huerta, my recommendation to you would have been when 
Senator Boxer finished her introduction that you say: I plead 
my case, and let it go at that, because you're getting some 
pressures here for things that I really don't think are 
justified.
    We have been fiddling around with NextGen technology before 
the turn of the century, and company after company, the best 
names in technology, aviation technology, were included. I was 
in the computer business before I came here, and the fact of 
the matter is that there was failure after failure after 
failure, with billions of dollars spent.
    So while we want you to push along, hurry it up as much as 
you can, but I think on balance that it has to be recognized 
that you're not responsible for the delay, but you will be 
responsible for the management of where we go, and we look 
forward to that.
    I think that we're fortunate that you're here, willing to 
serve at this job, because you're not going to get lots of pats 
on the back no matter what you do.
    The air traffic control tower at Newark Liberty Airport is 
critical to the entire aviation system, to the flying public. 
But the tower is constantly understaffed. I've received many 
assurances from the FAA over the years that this issue would be 
remedied, but the problem persists. We're still short a 
significant number of fully trained controllers.
    When might the Newark tower be fully staffed?
    Mr. Huerta. Senator Lautenberg, as you and I spoke about, 
the staffing range for Newark Liberty Airport is estimated to 
be somewhere between 32 and 38 controllers. We currently have 
below that number, in the high 20s, of actual certified 
controllers in the facility.
    We have an effort under way this year to transfer a number 
of additional controllers into the facility and plans for 2013. 
Also, in recognition of the unique complex air space that we 
have in northern New Jersey and greater New York, we placed a 
tower simulator in the Newark Liberty facility to provide the 
ability to do more on-the-ground training for controllers in 
the facility simulating the unique air space requirements of 
that area.
    That went into place earlier this year in March and I think 
that we're seeing some benefit associated with it. But we have 
to continue to focus on that.
    The New York area is critical for us and Newark Liberty is 
part of that. Most of the delays in the air traffic system have 
as their starting point the New York area. So focusing on 
ensuring that we have the appropriate technology and the 
appropriately trained staff in place, is something that we have 
to continue to focus on.
    Senator Lautenberg. You were asked a question some minutes 
ago about what kind of performance we might expect if there is 
less funding. Can things get better with less funding?
    Mr. Huerta. Clearly, funding is essential in our ability to 
deliver the Next Generation Air Transportation System. This 
committee and the Congress have been very supportive of those 
efforts. But we in the agency bear the responsibility to do it 
as efficiently as possible and to ensure that we are 
prioritizing those things that deliver the benefits for the 
users of the system.
    That's a conversation that we will continue to have. We're 
all in government. We all understand the fiscal challenges that 
we as a country face and the FAA needs to be part of that 
conversation.
    Senator Lautenberg. The FAA authorization which was signed 
into law earlier this year exempts certain NextGen projects 
from environmental review. I think perhaps Senator Thune was 
raising that question. The exemption has raised concerns in my 
region that there will be potentially more noise as a result of 
NextGen implementation. How is FAA going to provide communities 
with an opportunity for public input? That's critical, and 
that's a complaint that we hear about regularly and really in 
some instances very angrily, as you can imagine.
    So what can we do there?
    Mr. Huerta. The specific provision that you're referring to 
deals with environmental reviews related to the development of 
navigation procedures. We are working to figure out how best to 
implement a process that ensures that we're doing whatever 
environmental process we need to do as efficiently as possible.
    Having said that, the real intent behind the provision is 
why do these things take so long to develop? There is benefit, 
great environmental benefit, in getting navigation procedures 
out as quickly as possible. The benefit is that you reduce fuel 
burn, you reduce track miles, and you reduce noise. So getting 
them into the system as quickly as possible is generally a good 
thing.
    What the legislation suggested is find ways to cut down 
that time. So we're looking at the full scope of what needs to 
be done --everything from the development of the procedures to 
how they are designed, the environmental process, how it is 
deployed, operationalized, and then how we evaluate whether 
it's doing what it was originally intended to do.
    That's the process that we're trying to cut from 5 to 10 
years down to 2 or 3. So clearly the direction we receive from 
Congress in the environmental area is an important factor that 
we're focused on, but we're looking at the full scope of what 
is needed to be done here so that we can cut the overall time 
down.
    Senator Lautenberg. Madam Chairman, I close with this, Mr. 
Huerta, if I might. That is, I'd like your commitment that 
you're going to devote the time and energy to solving the 
Newark air traffic control problem that we wrestle with 
constantly.
    Mr. Huerta. Absolutely.
    Senator Lautenberg. Thank you.
    Thank you very much, Madam Chairman.
    Senator Cantwell. Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman.
    Thanks for the good job you're doing. As you and I talked 
about, as I said when we visited the other day, probably hard 
to find a group of 535 people that fly more or think they're 
more experts in air traffic, air travel, than Members of 
Congress. So it makes your job harder than a lot of the other 
regulatory jobs. But I've been impressed by the way you've been 
doing it and hope that moving permanently into the position 
allows you to finalize some things even in a better way.
    I have two or three things I want to ask about. On the 
pilot flight rule, at one point it looked to me like the FAA 
was moving toward having the same flight rules for passenger 
pilots as cargo pilots, which I didn't think was necessary. 
Eventually you decided that wasn't necessary, either. Is that 
the position the FAA will continue to have, that there's a 
different--the cargo pilots are under the rules that they've 
been working under and you're moving the passenger pilots to 
other rules; is that the status?
    Mr. Huerta. When we finalized our pilot flight duty and 
rest rule at the end of last year, we did exempt the cargo 
industry from the provisions of the rule as it was finally 
enacted. However, at that time Secretary LaHood and I 
encouraged the cargo industry to voluntarily opt into the 
program and to do the same things that are required for 
passenger operations in the rule in order to manage fatigue 
within the system.
    We've met with the cargo industry and we continue to urge 
them to abide by the provisions of the rule.
    Senator Blunt. But you're not requiring them--you're 
requiring them to abide by the provisions of the previous 
rules, right?
    Mr. Huerta. That's correct.
    Senator Blunt. On the cost of that, I noticed there was a 
wide discrepancy--I think the FAA thought that cargo companies 
complying with the rule would cost about $30 million and they 
thought $600 million. Have you looked more carefully at that 
cost-benefit, how they could have that big a number, how the 
numbers could be that widely divergent?
    Mr. Huerta. We're evaluating the cost-benefit provisions of 
the cargo portion of the analysis that we did, and we've 
brought a third party in to advise us in doing that. We expect 
to complete that review in the coming couple of weeks.
    Senator Blunt. Would you send me a copy of that review when 
it's available?
    Mr. Huerta. Certainly.
    Senator Blunt. I'd like to--this cost-benefit--I think 
there are going to be more and more pressures on cost-benefit 
generally as regulation is becoming a bigger and bigger concern 
at all levels. Maybe you can figure out how to help set the 
standard even for how to make that work.
    On the FAA training and conference center, there's language 
in the Senate appropriations bill that directs the FAA to 
continue to pursue new leased space for that center. You were a 
long way down that path last year and didn't get there at the 
end. What's your ongoing plan for how to look at the future of 
how you're going to conduct those training facilities, moving 
people in and out of one training facility to get their 
training?
    Mr. Huerta. Senator, as we talked about when we met, when 
the FAA was evaluating our training needs, we had developed an 
approach which included two components. One was to enter into a 
lease for a facility; and then the second, for the development 
of the training itself.
    In light of the fiscal challenges that we were facing as we 
were doing our work on that project, one of the things that we 
had some concern about was entering into a long-term lease, 
such as a ten-year lease, given the fiscal challenges that we 
knew that we were going to face in the future. At the same 
time, however, we were hearing that there were alternative 
models to conduct training where we would contract for services 
from entities that would provide both the training and the 
facility. So it was in that spirit that we suspended work on 
looking at a training facility.
    All of our options are on the table as we look at this 
review going forward of what is the best way to conduct 
training for the FAA's needs. We're a very technical 
organization, so training is critical to our mission. As I 
mentioned, the proposals that we had received on the training 
facility were very good proposals and none of the bidders did 
anything that represented a problem. It really is a question of 
is it prudent to enter into a long-term lease when we might 
have an alternative to contract for services.
    Senator Blunt. Well, I don't know about all of the bidders. 
I do know that in Kansas City, which bid for this, they had 
invested lots of money in that bid, which is also something 
that the FAA needs to think about. When you go out for bid and 
you have competitive bidders making substantial investments to 
try to make that work, and then just decide, well, maybe that's 
not what we needed, you probably ought to pull that trigger 
when you're a little more sure of where you're headed, though 
economic circumstances clearly are different than they may have 
been a handful of years ago when that discussion could have 
started.
    Will you make a decision on whether to go for bids that 
include training or whether to go for bids that only include 
facilities at some point, do you think?
    Mr. Huerta. At some point we have to decide whether we want 
to contract for training as a service, where the trainer would 
provide everything, the facility, the materials, the actual 
instruction, or whether we would want to use the model we've 
used in the past, which is to first have a facility and then 
bring trainers into it, with the FAA having the responsibility 
for development of the materials. That's exactly the analysis 
that we're in the middle of.
    Senator Blunt. And are the trainers right now FAA full-time 
employees?
    Mr. Huerta. They're contractors.
    Senator Blunt. They're contracted employees now and would 
be. In a sense, it just depends on who contracts with them, you 
or the successful bidder for the training?
    Mr. Huerta. They're always contract employees, and it can 
be any of a number of models.
    Senator Blunt. One last question on----
    The Chairman [presiding]. Senator Blunt, I hate to be rude, 
but----
    Senator Blunt. We have votes, Chairman.
    The Chairman. Is that OK? All right. Thank you for your 
courtesy.
    Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman.
    We appreciate your being here, and we do appreciate your 
service. I know you've worked really hard in the past. Let me 
ask you about FAA's certification. Certainly this is so 
important. We've got to be effective. It's got to be 
sufficient. We produce a lot of aviation products. We're a 
global marketplace, and it's really important that this is done 
in a timely fashion.
    Unfortunately, sometimes that's not the case; it's not done 
very timely. Can you comment a little bit on perhaps some ideas 
that you have how we can do a better job of that in the future, 
and any proposals that you've got in solving that problem?
    Mr. Huerta. Senator, I think there are two parts to it. The 
first is to ensure that we are establishing the right 
priorities and that we're carrying out our certification 
responsibilities as efficiently as we possibly can. In recent 
years we've put in place mechanisms that enable us to establish 
those priorities and to do things in parallel so that we're not 
taking a lot of time to certify these things.
    Now, as you well know, the certification process is 
important because that's how we ensure safety of aviation 
equipment, aircraft, and everything that goes into the 
operation of our aviation system.
    The second thing, though, is working cooperatively with 
industry through designations for some of the technical aspects 
of certification. This is where we can rely on the industry to 
perform some of the technical work, leaving for the FAA the 
analysis and ultimately the determinations as to airworthiness. 
That has given us greater bandwidth, more ability to move more 
things through the process.
    We have been successful in working down our backlog. We're 
not where we need to be. So to me what that means is we have to 
give renewed emphasis to what we can do through designations, 
for some of the technical aspects, and continue to find ways to 
make the process more efficient.
    Some of it is just doing things in parallel, as opposed to 
waiting for one aspect of the analysis to be done before moving 
on to the next one. But I've met with many, many interests in 
the general aviation industry, and in the aircraft 
manufacturing industry. We've learned a lot, and I think it's 
something that requires a very high level of my focus to ensure 
that we stay the course there.
    Senator Boozman. Good. I appreciate that. You know, we 
talked a lot about jobs and the economy, which we can't talk 
too much about it. Again, these are the things that play into 
that.
    In relation to that, I understand that we're moving more 
toward a risk-based safety oversight. Would certification be 
one of those things that either is going to be done in that way 
more or something to be considered in that regard?
    Mr. Huerta. The risk-based approach is how we evaluate 
where there might be operational issues in the system. In the 
past, we tended to use more of a forensic approach, you know, 
which was that as a problem emerged or an accident happened, 
you reviewed what caused it, and then the focus was on how do 
you prevent that from happening in the future.
    Through data-driven approaches, what we're trying to 
develop is more information about where there might be the 
potential for risk. What does the data tell us in terms of 
patterns that might be developing where, if not addressed, 
there might be a problem that would emerge down the road. This 
is definitely where we are focused: how can we use risk 
management techniques to identify areas of risk, in order to 
address them before there is a problem.
    That's what I referred to in my opening statement when I 
talked about how do you take the safest system in the world and 
make it safer. Well, you do it by making it smarter. That means 
we have to rely on data. We have to use that data in ways where 
we can develop a better understanding of where there might be 
risk and take actions to mitigate it.
    Senator Boozman. Again, it does seem like--and I think 
we're really saying the same thing--that with the certification 
process, that some things people need to devote more time to 
than other things. But again, hopefully, working together we 
can make that a little bit more effective.
    Thank you, Mr. Chairman, very much.
    The Chairman. Thank you, Senator Boozman.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. And 
thank you so much, Acting Administrator Huerta, for being here 
today and answering our questions in a straightforward manner.
    The airport improvement program is essential to many 
communities, both rural and urban. Additionally, smaller 
airports, which are central to rural commerce--we have a lot of 
them in my state--often struggle to get the funds needed for 
infrastructure updates for airports and runways. The local 
match requirement for small airport projects recently doubled 
from 5 to 10 percent. I'm concerned about the effect that this 
new requirement would force--that it could force small 
airports, which in the scheme of things aren't as small as 
some, like the one we have in Duluth, and elsewhere, to delay 
completion of critical infrastructure projects that were under 
way before the higher local match went into effect.
    I don't think it's fair to change the rules midstream, and 
I hope you'll work to find a way to help these airports 
complete their projects, because it's obviously very important. 
You can't just change the rules midstream and then expect 
everything to keep going as planned.
    So I'm going to be in Duluth tomorrow--we've had some major 
flooding up there--and was just wondering what I can tell them 
about this.
    Mr. Huerta. Well, Senator Klobuchar, the small airports 
play a very important role in our national system of airports. 
As you know, I had the pleasure of joining you in Bemidji a 
couple of years ago, which is a very important airport in 
Minnesota that I think serves an important need in the 
community.
    This question of the local match is something that was 
included in the FAA authorization, and we certainly recognize 
the burden that it represents for some of our smaller airport 
sponsors, particularly those that are midstream in projects. We 
think that, generally, the challenges that they have are pretty 
project-specific and very site-specific. Therefore, we have 
been aggressively and actively reaching out to airport 
sponsors: is this presenting a problem? How can we work with 
you to manage through these match issues to ensure that, at the 
end of the day, we get a successful project consistent with the 
provisions of the AIP program?
    So what you can tell your constituents in Duluth is that if 
they have not been in contact with their local airport's 
district office----
    Senator Klobuchar. Oh, they have.
    Mr. Huerta.--then we need to make sure that we sit down and 
work through an actual project plan to see how we can manage 
through this.
    Senator Klobuchar. OK, that would be very helpful.
    Then also I hope you can commit to making sure that cold 
weather airports, such as the ones you just discussed, Bemidji, 
Duluth, get the flexibility they need to complete 
infrastructure improvements with the short construction season 
issue. This is, again, they're waiting for awarded funds to be 
released so they can try to get this construction done through 
the summer season.
    Mr. Huerta. Two aspects to that. The FAA Authorization Act 
creates a framework under which we would prioritize cold 
weather airports for grantmaking purposes, and we're working on 
the implementation of that. But on an informal basis right now, 
what we're doing is making those determinations of where do we 
have an airport with a short construction season that has a 
specific need to get something done quickly. We're making those 
a priority as we move through the system in recognition of the 
unique circumstances they face.
    Senator Klobuchar. OK, good, because you came to Bemidji in 
the summer. Otherwise I'm going to make you come to Duluth when 
it's 20 below zero and do construction. So we have to try to 
fix it. I really appreciate that.
    Mr. Huerta. Absolutely.
    Senator Klobuchar. Then last, I wanted to just ask about 
the pilot fatigue issue. I understand that in the final order 
of the new regulations that it only applied to commercial 
pilots. Cargo pilots were not included. Can you expand on why 
the FAA chose to do this?
    Then I also have a concern about commuting practices. I 
know Senator Cantwell touched on this, and that some pilots 
commute across the country to their hubs and we have the issue 
where the FAA isn't following through with this request from 
the Inspector General about this particular commuting issue.
    Mr. Huerta. Well, first of all, as it relates to the pilot 
fatigue rule, as we talked about, the rule as it's currently 
drafted does exclude the cargo industry, but I've been very 
vocal in suggesting that the cargo industry should abide by the 
provisions of the rule. We've encouraged them to do that. 
Secretary LaHood has encouraged them to do that, and it's 
something that we've stressed should represent a good business 
practice for them in assuring a safe system.
    We will continue to meet with the cargo industry to apply 
aspects of the rule, to make sure that they have an 
understanding of what compliance looks like. Again, I encourage 
them to abide by the provisions of the rule. We couldn't make 
it work from a cost-benefit standpoint and so we're asking for 
their voluntary compliance.
    As it relates to the provisions of commuting, clearly 
pilots have a responsibility to report to work fit for duty. 
This is one of the things that we wanted to address in the 
fatigue rule, and I think we've come a long way in doing that. 
There is a level of personal responsibility that exists in the 
pilot community and I think the pilots have heard that and they 
understand that they bear a responsibility. We have to be 
vigilant to ensure that they have the opportunities for rest 
that they need so that they can report to work fit for duty.
    Senator Klobuchar. Very good. Thank you very much and I 
look forward to working with you on this. We'll put a few more 
questions on the record. Thanks.
    Mr. Huerta. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Voting has started. Senator Cantwell has probably already 
voted and is racing back here because she has a couple more 
questions she'd like to ask. But in the mean time, Senator 
Blunt, who I so rudely interrupted, wants to finish his 
questioning.
    Senator Blunt. Well, thank you, Chairman. I was failing to 
watch the clock and you weren't rude at all, and I was taking 
time that should have gone to others and did.
    What I was going to ask you about was on--we talked about 
the Columbia, Missouri, airport the other day. On these 
airports like that, that have moved off Essential Air Service, 
are there things that the FAA can do to encourage their ability 
to stay off Essential Air Service? Have you got some ideas 
there of ways that those kinds of airports that need to be 
planning for more travelers and more service could get some 
assistance in doing that?
    Mr. Huerta. Senator Blunt, as we talked about, Columbia is 
to be congratulated for being able to develop a level of air 
service that gets them off of the Essential Air Service program 
but as you quite correctly pointed out, how do we ensure they 
stay there?
    There's an infrastructure component to that. After we met, 
I sat down with our airports staff to find out what we knew 
about Columbia and have encouraged them to meet with the 
leadership at Columbia airport. One thing that we will 
certainly need to do is recognize the fact that the airport's 
master plans are quite old. We probably need to update them. 
The FAA is certainly willing to be supportive of that and to 
work with the airport sponsor on what their long-term needs are 
to maintain an efficient airport.
    Senator Blunt. Well, that would be helpful. I think as 
these airports move to where they're not getting the Essential 
Air Service support, things that we can do to help them stay 
there are really beneficial and make money. As long as we have 
an Essential Air Service program, when we can help people stay 
off of it, it's hard to imagine that that's not a better 
investment than the VSA support that we normally would give 
those same airports. So thank you for looking at that.
    Thank you, Chairman.
    The Chairman. Thank you, Senator Blunt.
    What I need to do now is, because we've got--Senator 
Klobuchar, who's finishing her third book over there, we----
    Senator Klobuchar. I'm tweeting about you. No, I'm not 
really. You wish.
    The Chairman. I wish.
    [Laughter.]
    The Chairman. Senator Cantwell is on her way back. So what 
I'd like to do, with your forbearance, is simply to recess this 
for a couple of minutes. She'll be back finishing her 
questions, and then we will adjourn. But Senator Klobuchar and 
I need to go vote.
    Thank you very much.
    Mr. Huerta. Thank you, sir.
    [Recess at 11:15 a.m.]
    [At the direction of the Chair and Ranking Member, the 
hearing was adjourned without further testimony at 2:43 p.m. by 
John Williams, General Counsel for the Commerce Committee.]
                            A P P E N D I X

                           Air Crash Victims Families Group
                                       Ridgewood, NJ, June 19, 2012
Hon. John D. Rockefeller IV,
Chairman,
Senate Committee on Commerce, Science, and Transport,
Washington, DC.

Subject: Nomination The Honorable Michael P. Huerta, Federal Aviation 
            Agency (FAA)

Mr. Chairman:

    We support the President's nomination of the Honorable Michael P. 
Huerta for a full term as the Administrator of the Federal Aviation 
Agency (FAA).
    Since 2011, Mr. Huerta serves already at the Federal Aviation 
Agency (FAA), first as a Deputy Administrator to which appointment you 
gave your Advice and Consent and the full Senate confirmed him. 
Presently he is the FAA's Acting Administrator.
    Considering the heavy workload of your Committee, we appreciate 
that some time was found to give the nominee the opportunity of a 
confirmation Hearing which--we do hope should be followed by timely, 
appropriate action of the full Senate, implementing your Advice and 
Consent to his nomination.
    The nominee has a proven, distinguished and wide ranging record as 
an able administrator not only presently at the FAA--but also at the 
Department of Transportation (DOT)--in the wider field of 
transportation, at large events and by education in the international 
field.
    We respectfully request that this letter be made part of Mr. 
Huerta's confirmation file, be distributed to the distinguished members 
of your committee and to the general public, if appropriate.
            Respectfully,
                                       Hans Ephraimson-Abt,
                                                   ACVFG--Chairman.

With: James Brokaw--Victoria Cummock--Miles Gerety--Jim Hurd--Richard 
            Kessler--Kendra St. Charles

By e-mail and surface mail.

cc:--The Hon. Senator Kay Bailey Hutchinson, Ranking Member

The Hon. Maria Cantwell, Chairman, Aviation Subcommittee

The Hon. Senator John Thune, Ranking Member
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                           Michael P. Huerta
    Question 1. In October, 2011, the U.S. Court of Appeals for the 
District of Columbia said the Federal Aviation Administration (FAA) 
misread its own rules when assessing Cape Wind renewable energy project 
off Nantucket Sound in Massachusetts. Specifically, the court 
determined that the FAA did not adequately determine whether Cape 
Wind's 130 turbines--each 440-foot tall--would pose a danger to pilots 
relying on sight rather than the plane's instruments. The court vacated 
the government's ``no hazard'' finding and sent the case back to the 
FAA, agreeing with plaintiffs that ``the FAA did misread its 
regulations.'' I understand that you were not at the FAA when this 
proposal was approved.
    It is my understanding that the Federal Aviation Administration is 
reconsidering its approval for the Cape Wind renewable energy project 
in Nantucket Sound. If confirmed to be the Administrator of the FAA, 
will you assure the Commerce Committee that the FAA will provide an 
appropriate and fair review to both sides of the safety issues related 
to the Cape Wind application will be done before any final decision on 
this project is made?
    Answer. If confirmed as Administrator, I will continue to ensure 
that FAA's objective to promote air safety and the efficient use of the 
navigable airspace will be maintained. In evaluating potential 
obstructions to air navigation, the standards and processes FAA uses to 
make obstruction determinations and their effect on the safe and 
efficient use of the airspace are prescribed by statute and FAA 
regulations and orders.
    As the Senator noted, on May 17, 2010, FAA issued written 
determinations that each of 130 wind turbines proposed to be built by 
Cape Wind in Nantucket Sound would not be a hazard to air navigation if 
properly marked and lighted. FAA issued these determinations only after 
it conducted an in-depth, year-long aeronautical study on the proposed 
project's effect on the operation of air navigation facilities and the 
safe and efficient utilization of the navigable airspace, as required 
by statute. As a result of the court case referenced by Senator Kerry, 
FAA will be issuing new determinations for the Cape Wind project in 
accordance with our statutes and regulations while factoring in the 
Court's decision issued last October. The FAA determinations will 
reflect the rigorous, science-based analysis FAA has undertaken to 
evaluate the Cape Wind proposal. Our approach will provide an 
appropriate and fair review of the Cape Wind application.

    Question 2. As you may know, the Westfield Barnes Regional Airport 
in Westfield, Massachusetts is utilized by commercial and private 
aircraft as well as the Air National Guard. Runway 2/20, the primary 
runway, is in dire need of reconstruction. The runway is over 27 years 
old and has sustained continued deterioration despite investment from 
the FAA for patches. This runway is a critical asset in Western 
Massachusetts for commercial and private aircraft tenants and visitors 
but also by the 104th Fighter Wing and the missions they support at the 
Air National Guard level as well as Homeland Security in the F-15C 
Eagles. For the well being of all planes that land and take off from 
Westfield Barnes Regional Airport it is imperative that Runway 2/20 be 
looked at for a rebuild prior to the scheduled date of 2015. Would you 
be willing to review the runway's status and see if the repaving can be 
sped up?
    Answer. The FAA is willing to review the runway's status and see if 
the repaving can be sped up per the Senator's request. However, as the 
Senator notes, the runway is used by both civilian and military 
aircraft. AIP funds may only be used for the portion of the runway 
rehabilitation that is justified by civilian operations, and the 
military would fund the additional length of the runway that is needed 
for military operations. (The civilian aircraft using the runway do not 
need as much runway length as the military aircraft do.)
    The FAA has confirmed that the recent runway repairs that have been 
funded by the American Recovery and Reinvestment Act (2009), the Air 
National Guard (2011) and the Massachusetts Department of 
Transportation (2011) have brought the runway up to a level of safety 
that will allow it to perform until the scheduled 2015 rehabilitation 
can be completed.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                           Michael P. Huerta
    Question 1. I understand that you will be revising the OMB cost 
estimates for the pilot fatigue management rulemaking that was recently 
issued. Senator Snowe and I have introduced legislation, the Safe Skies 
Act of 2012, to close the current loophole in the new fatigue 
management plans for pilots that would exempt cargo airline pilots to 
ensure that they are included in the same requirements as commercial 
airline pilots. Will you share the outcome of this revised study with 
us? Will you take into account the concerns expressed by pilots 
regarding the exception for cargo carriers?
    Answer. The FAA has asked the Volpe Center to evaluate the final 
regulatory evaluation to identify and correct errors in the calculation 
of potential costs and benefits to all-cargo operations. These errors 
were discovered by the FAA during the course of litigation associated 
with the agency's decision not to include these operations in the new 
part 117. This new regulation imposes new flight, duty and rest 
requirements on part 121 passenger operations. This fall, the FAA 
intends to issue a draft supplemental regulatory evaluation that will 
correct any errors and also better explain our underlying assumptions 
and methodologies in calculating the anticipated costs and benefits 
detailed in the final regulatory evaluation. Once the supplemental 
regulatory evaluation is complete, it will be published in the Federal 
Register for notice and comment. All interested parties are invited to 
comment on that document. After the FAA has had a chance to evaluate 
comments received, the agency will issue a notice indicating whether 
the supplemental regulatory evaluation and the agency's review of 
comments justify any change to the final rule.

    Question 2. Following the tragic crash of Flight 3407, the NTSB 
investigation revealed some significant issues in how the pilots were 
trained, especially in regards to handling a stall. In light of that, 
Congress unanimously passed legislation aimed at improving safety, 
including the training of commercial pilots. The FAA is already behind 
on the rulemaking to address pilot training. Is the FAA still planning 
to delay this rulemaking until October 2013? If so, how is the FAA 
planning to expedite efforts to address concerns the Flight 3407 
families have raised regarding the lengthy implementation time frame?
    Answer. The Qualification, Service, and Use of Crewmembers and 
Aircraft Dispatchers Supplemental Notice of Proposed Rulemaking (SNPRM) 
is a comprehensive training rule that includes revised airline pilot 
training requirements. The SNPRM public comment period closed in 
September 2011 and the FAA is currently developing the final rule. The 
agency currently projects a publication date of October 2013 for the 
final rule, but I am committed to working to accelerate that if 
possible. The final rule will permit the certificate holder to use its 
approved programs while it transitions to the new requirements. In the 
SNPRM we proposed up to 5 years for that transition. New air carriers 
must train under the new requirements from the first day of operations. 
However, we will consider the transition period as we draft a final 
rule.
    To accommodate training on stall and stall recovery, we also had to 
make changes to the fidelity of the simulators used for that training. 
The Rulemaking Action Plan for that rule was approved and the team is 
developing the Notice of Proposed Rulemaking.
    We reinstated the Stick Pusher and Adverse Weather Aviation 
Rulemaking Committee to address aircraft stall training and to develop 
mitigating upset recovery training strategies. This group will provide 
the FAA with additional recommendations in Fall 2012. The FAA is 
participating in initiatives of the Royal Aeronautical Society (RAeS) 
and International Committee for Aviation Training in Extended Envelopes 
(ICATEE) to address loss of control. ICAO has also extended invitations 
to other national aviation authorities (NAAs) to observe these 
proceedings and facilitate harmonization in the development of future 
training standards. These harmonized efforts will ensure U.S. pilots 
will continue to receive the highest quality and relevant training 
available.
    These are complicated rulemaking endeavors that require a 
substantial investment of time and resources, including executive 
review within the Administration. Nevertheless, I am committed to doing 
everything we can to finalize rulemakings as quickly as possible.

    Question 3. The Flight 3407 accident also raised serious issues 
regarding pilot qualifications among regional airlines and the major 
commercial airlines. Where is your agency at in the process of 
completing the pilot qualifications rulemaking process? What progress 
have regional airlines made in implementing stronger pilot hiring 
standards? Are they making the same investment in safety as the major 
airlines?
    Answer. P.L. 111-216 required all part 121 flight crew members to 
hold an ATP certificate by August 2, 2013. Although the NPRM 
incorporates the ATP certificate requirement, the Act's requirement is 
self-enacting and will take effect on August 2, 2013 independent of any 
FAA rulemaking action. The FAA is working to have a final rule out 
prior to August 2, 2013. The FAA issued Information to Operators (InFO) 
10024 on December 15, 2010 to notify air carriers of the ATP 
requirement.
    The Pilot Certification and Qualification Requirements for Air 
Carrier Operations Notice of Proposed Rulemaking (NPRM), which provides 
training requirements for achieving an airline transport pilot 
certificate and includes the requirement that all airline pilots have 
an airline transport pilot certificate, closed for public comment on 
April 30, 2012. We are currently reviewing and considering the more 
than 550 comments received to the proposal as we develop the final 
rule. The NPRM is consistent with a mandate in the Airline Safety and 
Federal Aviation Administration Extension Act of 2010 (P.L. 111-216). 
The NPRM would require first officers to hold an Airline Transport 
Pilot (ATP) certificate, which requires 1,500 hours of pilot flight 
time. Currently, first officers are required to have only a commercial 
pilot certificate, which requires 250 hours of flight time. The 
proposal also would require first officers to have an aircraft type 
rating. The proposal included modified flight time requirements based 
on military or academic experience.
    We are working towards publication of a final rule that will 
address the comments in advance of the August 2013 self-enacting 
statutory requirement that all pilots in Part 121 operations have an 
airline transport pilot certificate.
    All regional airlines and major airlines are covered by 14 CFR Part 
121 and must meet the same safety standards.

    Question 4. In the 2010 Airline Safety and Federal Aviation 
Administration Extension Act of 2010, Congress sought to address the 
issue of keeping better track of pilot records by creating a federal 
electronic record database for all pilots. In response to my question 
for the record for the Commercial Airline Safety Oversight hearing in 
March, the FAA said that the proof of concept for the database would be 
completed in the 4th quarter of 2012 and you will then evaluate and 
determine a rulemaking timeline. Can you comment as to when the 
rulemaking timeline would come out after the evaluation is completed? 
By what date could we expect to have the rulemaking finalized?
    Answer. Depending on what we learn in the proof of concept phase, 
we expect to develop the plan for rulemaking by November of 2012. This 
scenario would yield a Pilot Record NPRM in March of 2014 and a final 
rule in November of 2015.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                           Michael P. Huerta
    Question 1. Do you believe you have the necessary statutory 
authority to implement Section 221 (Public-Private Partnerships) in the 
FAA Modernization and Reform Act of 2012 (P.L. 112-95)? If not, please 
explain and provide the agency's plans for implementation.
    Answer. Based on the Federal Credit Reform Act of 1990, the FAA 
believes that additional statutory authority is required to create an 
incentive program. The FCRA requires either budget authority, a loan 
limitation or other provision in an appropriations act before the FAA 
can make or guarantee loans. Since Section 221 of the ``FAA 
Modernization and Reform Act'' requires the Secretary to finance any 
program established under this section through the collection of 
collateral, fees and premiums, a loan limitation is most applicable.
    The FAA is currently evaluating various options to see how this 
provision might allow us to provide incentives for equipage that would 
accelerate the benefits of NextGen. We are also evaluating other 
government incentive programs and assessing feedback from stakeholders 
to develop and then implement an effective incentive program. The 
agency held one public meeting and another is scheduled for August 7 to 
share the evolution of our thinking based on what the agency heard from 
stakeholders and to communicate next steps. Additionally, the agency 
released a market survey to determine interest in this incentive 
program by both private parties and users of the National Airspace 
System. Based on review of other incentive programs and stakeholder 
feedback, the agency is designing an equipage incentive program for 
possible implementation.
    In order to complete the stand-up of the equipage incentive 
program, the FAA must evaluate stakeholder feedback; finalize the 
design of the incentive program; determine that such a program will 
meet the goals of accelerating equipage and delivery of NextGen 
benefits; receive additional statutory authority; and complete the 
administrative processes in support of the Federal Credit Reform Act of 
1990.

    Question 2. How is the FAA working to ensure Automatic Dependent 
Surveillance-Broadcast equipage is accelerated and what milestone based 
timelines are you working toward?
    Answer. Through a monitoring capability, the ADS-B program office 
has detected more than 775 properly equipped aircraft (mostly General 
Aviation) on the East Coast, West Coast, and in Alaska that are taking 
advantage of traffic and weather information services. In addition, 
there are approximately 150 aircraft equipped with ADS-B Out rule 
compliant avionics.
    To expedite equipage, the agency has signed agreements with several 
airlines, including JetBlue, United, UPS, and US Airways. These 
agreements are set up to demonstrate the benefits of advanced ADS-B 
applications and procedures during revenue service and allow the FAA to 
share costs and risks with the participants. The operational 
evaluations will give the agency detailed cost and benefit data, and 
encourage airlines to equip early to capitalize on ADS-B benefits. 
Under these agreements, the following equipage will occur:

  <bullet> 35 JetBlue A320 aircraft

  <bullet> 12 United 747 aircraft (DO-260 complete, upgrades to be rule 
        compliant in 2013)

  <bullet> 20 US Airways A330 aircraft

  <bullet> 143 UPS aircraft (747, 767, A300, and MD-11)

    To ensure FAA ADS-B projects meet established goals and timelines 
for the acceleration of equipage, the Flight Standards (AFS) and 
Aircraft Certification (AIR) offices in Washington, D.C. coordinate 
directly with the supporting certification (ACO) and certificate 
management offices (CMO) to provide guidance and assist in the 
management of priorities and workload. AFS and AIR coordinate with 
avionics manufacturers, ACOs, and CMOs to expedite the certification, 
installation, and operational approvals of new ADS-B avionics to aid in 
increased equipage. Additional technical standards are being developed 
that target the needs of the general aviation community within the US. 
These new standards will allow manufacturers to produce and market ADS-
B equipment at a lower price, making ADS-B equipage more affordable for 
this large group of NAS users.
    The agency has also agreed to fund upgrades to the avionics for 
approximately 54 helicopters in the Gulf of Mexico. These operators 
voluntarily equipped with an earlier version of ADS-B avionics before 
the ADS-B rule requirements were published. In addition, the FAA will 
award a contract this fall to upgrade approximately 400 air taxi 
aircraft that were equipped under the legacy Capstone program in 
Alaska.
    The ADS-B Out Final Rule was published in May 2010, with compliance 
effective after January 1, 2020. In conjunction with publication of the 
rule, associated technical standards and installation guidance were 
published to enable the manufacture and installation of ADS-B Out 
avionics to begin 10 years before the mandate. The ADS-B program office 
considers 2012 to be early for self-equipage under the rule, as 
manufacturers are just now starting to submit avionics through the 
FAA's certification process. The FAA anticipates equipage to increase 
in 2013 and beyond, as more certified, rule-complaint avionics become 
available.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                           Michael P. Huerta
    Question 1. Fundamental NextGen programs have suffered delays and 
cost increases, raising concerns over the Federal Aviation 
Administration's (FAA) ability to deliver NextGen benefits in a timely 
fashion. How will you get this critical initiative moving forward 
again?
    Answer. NextGen has a high priority in the Administration, the 
Department of Transportation and the FAA. Its complexity and 
interdependencies make it different from anything the FAA has ever 
done. In 2010, an external organization was tasked by the FAA 
Administrator to diagnose the current state of NextGen via interviews 
and surveys with employees across the Agency. Agency leadership 
recognized the need for a transformation that would result in one FAA 
moving towards successful integration of the extremely complex NextGen 
vision of National Airspace System (NAS) modernization.
    The assessment resulted in two key recommendations to better 
position the agency to successfully implement NextGen:

  <bullet> Create increased internal and external visibility of the 
        NextGen organization by establishing a direct line of reporting 
        to the Deputy Administrator, as well as a restructure of 
        positions and groups to better align with organizational goals 
        and the NextGen mission. The agency implemented this change as 
        part of our reprogramming request last year.

  <bullet> Develop a process in which an idea is developed and 
        implemented in the National Airspace System (NAS) through 
        cross-agency collaboration, increased transparency, defined 
        roles and responsibilities, and establishment of clear decision 
        authorities

    NextGen requires an expanded and more collaborative acquisition 
process for the NAS than we have traditionally used. From May to 
September of 2011, the Functional Design Consideration Team (FDCT) 
worked extensively to address the above recommendations. The FDCT 
included members from the NextGen organization and representation from 
across the agency. Specifically, the group developed the Ideas to In-
Service framework (i2i) to move a concept from an idea to in-service 
management. Highlights of i2i include:

  <bullet> A deliberate reduction in ``hand-offs'' in favor of 
        collaboration. NextGen, program management offices, operations 
        and other FAA offices engage throughout the capability 
        lifecycle from beginning to end.

  <bullet> A single FAA-wide process for changes to the NAS that works 
        with all contributors to the NAS.

  <bullet> A collaborative approach that requires shared 
        accountability, responsibility and risk. This is achieved 
        through direct and obligatory engagement.

  <bullet> Capture Teams, which consist of representatives across the 
        agency who are responsible for activities such as requirements 
        management, configuration management, and assumption/constraint 
        management. Capture Teams minimize rework and retain the same 
        stakeholders to manage a portfolio of products from the 
        managing requirements stage all the way through to in-service 
        management.

    The framework was approved on September 26 by the FAA's NextGen 
Management Board (NMB). The FAA is currently in the process of 
integrating i2i into the agency's training and workflows.
    The FAA also created the Program Management Organization or PMO. 
This new central program office within the Air Traffic Organization 
assembles in one organization the majority of programs that specialize 
in program management. This allows our operational groups to focus on 
the key daily mission of safely separating air traffic and maintaining 
our airspace system. It allows our program organization to focus on 
managing for better outcomes by developing improvements to our airspace 
and making sure these solutions are on time, cost effective and within 
scope.
    The PMO will improve consistency of program execution through 
robust information sharing with stakeholders, institutionalization of 
acquisition best practices and community review of lessons learned. The 
PMO will standardize the required steps, from definition and design 
through development and deployment, creating a bridge between concepts 
and operational use of technologies. Having a portfolio of programs 
under one umbrella provides the potential for streamlining, better cost 
control and economies of scale to better manage uncertainty.
    The PMO will also ensure greater visibility, tighter alignment and 
closer integration of complex, interdependent NextGen initiatives and 
innovative technology. The PMO will play a critical role in the success 
of NextGen by acting as the bridge between strategic requirements and 
tactical program implementation to improve the safety and efficiency of 
our National Airspace System.
    The PMO's success will depend on developing and maintaining 
relationships with other FAA organizations. Most critical among these 
are our relationships with NextGen, which will help set the overall 
direction of some of our highest priority program work, and with 
Mission Support's requirements and concept validation office, which 
will help ensure operational adaptability and validity.
    An added benefit for our coworkers is the PMO will recognize and 
elevate the profession of program management within the agency. The PMO 
will clarify and enhance program management and related acquisition 
career paths, and help us attract and retain highly skilled and 
motivated individuals on program management teams.
    The PMO will play a critical role in each of the tenets of our new 
flight plan, Destination 2025: moving to the next level of safety, 
creating a workplace of choice, delivering aviation access through 
innovation, sustaining our future, and advancing global collaboration.

    Question 2. The Special Counsel's May 8, 2012 letter cites 
whistleblower disclosures regarding recurring safety lapses and 
inaction to solve these problems even after the establishment of the 
FAA whistleblower office. At the hearing, you cited the establishment 
of this office as a tool to help to resolve safety issues before they 
affect the travelling public. But the persistence of these issues years 
after the establishment of the office raises concern. What are your 
plans to more effectively improve the safety culture at the FAA?
    Answer. The U.S. Office of Special Counsel's (OSC) May 8, 2012 
letter to the President, to Congress, and to the Secretary of 
Transportation closed seven whistleblower cases filed by eight FAA 
employees. Four of the seven cases were repeat disclosures dating back 
to 2008 and filed again by the same whistleblowers. Only one of the 7 
cases (Seeley) is an entirely new case referred by OSC after the 
establishment of FAA's new Office of Audit and Evaluation (AAE, 
``whistleblower office''). Two of the seven cases involve a single 
whistleblower who has filed a total of seven OSC disclosures since 2008 
for primarily related issues at Detroit (DTW) tower.
    AAE's mission was formally established by the agency in December 6, 
2010 and enacted into law on February 14, 2012 when the President 
signed the FAA Modernization and Reform Act. Thus, our new procedures 
for dealing with whistleblower disclosures were not in place when most 
of these cases were initially referred to the FAA.
    In the Seeley case, which was investigated and overseen by the AAE 
organization, the OSC complimented the FAA and found our actions 
comprehensive, timely, and reasonable. In all of the seven cases, the 
FAA initiated immediate actions on any safety issues which were 
substantiated (many were not), long before OSC's May 8 closures, and in 
no case was the safety of the travelling public significantly impacted. 
In all of the four repeat disclosures, the FAA was already working with 
the whistleblowers on corrective actions prior to their decision to 
file the repeat disclosures with the OSC.
    The OSC delayed their closure of these cases, in some cases, for 
more than a year after they had received the investigative reports from 
the DOT Office of Inspector General (OIG) or FAA AAE. In none of the 
cases did either OIG or AAE find that there was ``a substantial danger 
to public safety.'' However, all of them were vigorously addressed 
because of our desire to correct any safety deficiency that is 
identified, even if that issue involved small levels of risk.
    In the other six cases covered in the May 8 letter,the OSC did not 
allege FAA ``inaction.'' Rather, they alleged that the agency's 
responses were ``unreasonable because of delays or the lack of 
appropriate or timely corrective action'', and the FAA strongly 
disagrees with the OSC's conclusions. In all of those cases, the FAA 
implemented comprehensive corrective actions and continues to audit the 
effectiveness of those actions.
    While the FAA applauds the OSC's good intentions and diligence in 
its oversight efforts, the Pay increases under the recent contract 
extension are not based on individual or agency performance. The 
contract provides two raises to employees. The January raise is equal 
to the Presidential Increase so employees would not receive a raise if 
there are continued freezes in the general schedule. The second raise 
is paid in June and is fixed at 1.6 percent. The June raise will ``not 
be granted in any year in which a prohibition on step increases under 
the General Schedule (GS) is enacted by statute.'' The FAA must proceed 
very carefully when making changes in air traffic procedures or to the 
Federal Aviation Regulations (FARs), and any proposed change must be 
carefully evaluated so as to ensure that the proposed action will 
effectively address a known safety issue and will not introduce new and 
unintended consequences, which could introduce new risk factors more 
serious than the issue under consideration for appropriate corrective 
action. That careful evaluation process requires painstaking evaluation 
and data collection and usually takes a considerable amount of time. 
Sometimes, new procedures are introduced on a trial basis, but are 
later withdrawn because the data either do not support their 
effectiveness, or better changes and refinements are identified during 
the data collection and safety risk evaluation process.
    The aviation community, in general, has a long history of safety 
reporting, and aviation professionals have always been more inclined to 
report safety issues than employees in other venues. In large part, 
this culture of safety reporting has contributed to the remarkable 
safety improvements and to the astonishingly strong commercial aviation 
safety record, which has no peer in any other environment.
    The FAA believes that a strong measure of a healthy safety culture 
is an environment with a consistently large number of safety 
disclosures, and we believe that the OSC arrived at an erroneous 
conclusion by implying that more safety disclosures somehow infers the 
presence of more safety problems or negatively implicates an 
organization's safety culture.
    We believe the opposite to be true. That is, the absence of safety 
disclosures is more characteristic of an unhealthy safety culture where 
employees are reluctant to report their concerns.
    To bolster our safety culture, we are continually encouraging the 
reporting of all safety concerns by both FAA employees and any other 
member of the aviation community by providing a non-punitive reporting 
environment, where a safety disclosure can be filed without fear of 
retaliation or other negative consequences. AAE was established as an 
entirely independent office reporting to the Administrator for that 
very reason. Programs like the Aviation Safety Action Program (ASAP), 
the Air Traffic Safety Action Program (ATSAP), Voluntary Self-
Disclosure Program (VDRP), the Whistleblower Protection Program (WPP), 
and other reporting programs are all aimed at increasing our number of 
safety disclosures to provide us with more safety data trends, and thus 
continually bolster the strength of our safety culture.

    Question 3. What actions did you take to address each of the safety 
issues raised in the Special Counsel's May 8, 2012 letter to the 
President and Congress?
    Answer. The corrective actions implemented by the FAA in all of the 
seven cases closed by the OSC on May 8, 2012 are summarized below:
Foster
    This is repeat disclosure originally referred to the FAA in 2008. 
The OSC concluded that the FAA's actions were ``unreasonable,'' but 
only because of what they perceived to be an unreasonable delay in 
implementing a comprehensive corrective action plan. The OSC does not 
suggest that the corrective action plan now in place is 
``unreasonable'' or in any way ineffective.
    The main thrust of this issue is not the actual safety or 
airworthiness of the emergency medical system (EMS) helicopters 
retrofitted with night vision imaging systems (NVIS), per se. The 
disclosure pertained exclusively to regulatory compliance with NVIS 
installation specifications and thus, only to operations while using 
the NVIS systems, which is a small fraction of EMS operations. The 
corrective action plan did take a considerable amount of time to 
implement because almost every one of the hundreds of EMS helicopters 
fitted with NVIS is unique, and each installation had to be customized 
for an individual aircraft. Thus, aircraft, so equipped, had to be 
visually inspected by the FAA, and new airworthiness guidance for the 
installation in each individual aircraft had to be developed. That did 
take considerable time and consumed an extraordinary number of FAA 
aviation safety inspector resources.
    There were no reported safety incidents involving malfunctioning 
NVIS systems, but if there had been a pilot could simply have taken the 
night vision goggles off. In the FAA's inspection of NVIS-equipped 
helicopters, 51 identified ``potential safety concerns'' were given to 
a team of senior airworthiness experts for analyses, but only one was 
judged to be an actual safety concern.
    Nonetheless, all of the identified discrepancies were addressed. 
While there was no violation of ``law, rule, or regulation,'' the FAA 
does agree that FAA guidance was inadequate to address to complexity of 
installing and maintaining the regulatory compliance of NVIS systems, 
and new guidance was put into place. In short, no significant danger to 
public safety existed in this case, but the issue was aggressively 
addressed.
Seeley
    The OSC concluded that FAA actions were ``reasonable.'' The FAA 
removed the entire management team at the New York Air Route Traffic 
Control Center (ZNY-ARTCC), and all of the allegations substantiated 
during our investigation were the result of lax and inadequate 
management. Actions were taken to terminate the facility manager, and 
other subordinate managers were served with disciplinary proposals and 
removed from the management ranks.
    The new management team implemented a comprehensive set of 
management reforms and facility management procedures changes. The AAE 
continues to monitor compliance with these new procedures, and level of 
compliance with FAA policies at ZNY-ARTCC is now high.
Iacopelli
    This investigation was referred prior to the formal stand-up of AAE 
and was performed by the DOT-OIG with FAA support. The OSC again 
concluded that the FAA's actions were ``unreasonable,'' but only 
because of what OSC felt were delays in its resolution. Despite this 
finding of ``unreasonable,'' the OSC goes on to acknowledge in the May 
8 letter that the resolution was satisfactory.
    This safety disclosure pertained to a visual flight rules (VFR) 
departure procedure (``Dalton Procedure'') at Teterboro, NJ (TEB) 
airport, which was designed to minimize the risk of uncontrolled VFR 
traffic conflicts with arrivals at nearby Newark Liberty International 
Airport (EWR). The complainant reported that pilots were sometimes 
flying the procedure incorrectly, which increased the risk of a traffic 
conflict with a EWR arrival.
    The OIG concluded that the Dalton Procedure may pose a hazard, but 
neither the FAA nor the OIG had sufficient evidence to conclude that a 
safety issue existed. Thus, the FAA immediately agreed to begin 
auditing Dalton compliance, while in the meantime instructing 
controllers not to offer the use of that procedure unless pilots 
specifically requested it. OIG agreed with this approach and the 
logical rationale that only pilots familiar with Dalton would request 
it, decreasing the probability they would fly it incorrectly.
    FAA and OIG both agreed that cancelling the Dalton Procedure would 
have posed a greater danger to public safety because pilots could still 
have requested a VFR departure, in which case there would have been no 
guidance from FAA other than ``see and avoid'' all traffic. Dalton was 
an attempt to impose stricter guidelines on VFR operations.
    After collecting sufficient data, the FAA agreed that the Dalton 
Procedure could, and should, be revised. The whistleblower worked with 
the FAA and agreed that the revision would correct the problem, and 
steps were taken to implement and evaluate it on a trial basis. The new 
Dalton Procedure has proven effective, and after final validation, it 
will be published as a permanent procedure soon.
    This case also illustrates that the process of implementing 
airspace procedures changes always requires considerable time, because 
it would be irresponsible to implement changes in the absence of 
compelling evidence of a severe risk to public safety without a 
systematic data collection and safety risk analysis. To do so would run 
the risk of introducing unintended consequences, with greater risk to 
public safety than the original procedure.
Lund/Mirau
    This is a repeat disclosure of a case that was originally referred 
in 2008 by one of the same whistleblowers (Lund). The 2008 case 
involved Northwest Airlines (NWA), whose fleet has now been 
incorporated into Delta Airlines (DAL), and the newer case also 
involved the same former NWA aircraft. The OSC concluded that the 
investigative findings and corrective actions were ``reasonable,'' but 
questioned FAA's surveillance program because additional discrepancies 
were noted, related to the 2008 case, and suggested that FAA took too 
long to implement effective corrective actions.
    The OSC contention that actions took ``too long'' does not take 
into account the sequence of events leading up to the whistleblowers' 
allegations. The process began with the fact that Mr. Lund had not 
completed the assigned task for the review of the B-757 maintenance 
program at DAL. Subsequently, he was assigned to complete this task 
with the assistance of another safety inspector. He failed to complete 
the task and contacted the OSC. Following this action, the DAL FAA 
certificate management office (CMO) conducted an independent review 
with three DAL CMO inspectors of the B-757 program. This inspection led 
to two enforcement action filings and an action plan audit script to 
correct the administrative deficiencies discovered. This audit script 
was applied to all nine fleet types operated by DAL, both by the 
company and a 100 percent review by each fleet assigned FAA maintenance 
inspection manager. The airline agreed to conduct a safety analysis 
review for the correct application & implementation of all of the 
airworthiness directives (AD) associated with the maintenance program. 
This review was completed by December 31, 2011 and all minor 
administrative issues were resolved, with only one AD requiring 
corrective action. Such reviews are part of FAA's continuing 
surveillance process and procedures implemented after the 2008 
disclosure, and well prior to the more recent OSC disclosure.
    On June 2-9, 2011, a FAA Headquarters-appointed Flight Standards 
(AFS) investigation team conducted a review of the whistleblower 
allegations and did not substantiate the alleged non-compliance of DAL 
with AD 2008-10-11. The investigation did not substantiate the 
allegation that the Operations Specifications (OPSS) were approved with 
known deficiencies. The FAA investigation determined that the 
administrative discrepancies revealed were not significant enough for a 
safety of flight concern. However, enforcement action is still being 
contemplated against DAL for non-compliance in certain areas.
    The FAA's final conclusion after an administrative review of 
maintenance documentation, interviews with ASI's and Delta personnel 
was that there was no immediate safety of flight issues or unsafe 
conditions associated with the allegations, even though both FAA and 
the OIG identified some compliance discrepancies. The complexity of 
this timeline, the technical implications of the non-compliance 
findings, and the complexity of the various reviews underway well prior 
to OSC's referral again all underscore the challenges OSC faces in 
making appropriate determinations of ``reasonableness'' and 
``timeliness.''
Diaz
    This is another repeat disclosure originally referred in 2008. This 
case pertains to deviations of foreign-controlled air traffic (foreign 
facility deviations, FFDs) into U.S. airspace around Puerto Rico (PR). 
An FFD is not a ``near miss'' or a ``close call.'' It is simply an 
unauthorized and uncoordinated deviation into U.S. airspace because no 
prior communication has taken place prior to the entry into U.S. 
airspace. The allegations were partially substantiated, and OSC 
criticized the FAA for taking too long to resolve the problems 
identified in 2008.
    However, OSC's May 8 conclusion does not correlate with the trend 
data on FFDs in PR airspace. In 2009, there were 52 recorded FFDs. In 
2010, there were 76, but in all of 2011 there were only 18, and the 
2012 year-to-date numbers remain consistent with 2011 levels, as a 
result of better coordination between San Juan controllers and foreign 
facilities, primarily the Dominican Republic.
    The FAA agrees with the OIG's finding that FFDs into PR airspace do 
not pose a substantial and specific danger to aviation safety. These 
FFDs occur when a non-US controlled aircraft from foreign airspace 
deviates into (enters) adjacent airspace controlled by the San Juan ATC 
facility, at other than expected/intended location or at altitude/
route/speed other than expected/intended without timely coordination/
clearance or authorization.
    The OSC stated that FAA has not completed all promised corrective 
actions. The most important of these is the development of a radar 
sharing agreement between the U.S., the Dominican Republic, and San 
Maarten, as well as the installation of a ``shout line'' between San 
Juan and the Dominican Republic that will enable instant, direct 
communication between facilities, and it is true that these actions 
have not been completed.
    However, the U.S. cannot unilaterally force another sovereign 
nation to install equipment into its ATC facilities. The FAA has been 
and remains ready to install the necessary equipment in our facilities. 
Diplomatic efforts to persuade the appropriate foreign nations to speed 
up these installations continue.
Sugent/Gault
    In this case, the OSC concluded that FAA's actions were 
``unreasonable'' and ``unresolved.'' The DOT-OIG partially 
substantiated the complainants' allegations that two competing 
directives pertaining to aircraft separation and missed approach 
procedures could be interpreted as being in conflict and not possible 
to simultaneously adhere to. In particular, the investigation found 
that some controllers at DTW, including management, misunderstood the 
directives and a lack of training was cited.
    The FAA reviewed the published arrival and missed approach 
procedures at DTW, and Notices to Airmen were published on April 3, 
2012, announcing new missed approach procedures, which seek to clarify 
any remaining confusion. The FAA reviewed the application of national 
air traffic policies in place at the time, and the agency does not 
agree that the procedures in question conflict with any other policies 
necessary for safe operations at DTW. In short, nothing inconsistent or 
unique was found at DTW, and that operating environment is common to 
other large airports with parallel runways and simultaneous operations. 
Thus, the national guidance is consistent.
    In order to further reduce any remaining controller confusion, DTW 
updated their training materials related to simultaneous operations to 
ensure controller training was properly focused and understandable, and 
the facility retrained all local controllers responsible for 
simultaneous operations on the proper application of FAAO 7110.65 
paragraphs 5-8-3, 5-8-4, and 5-8-5. The training of local controllers 
was completed Mar. 11-20, 2012. The FAA will continue to audit the 
effectiveness of the new guidance and procedures.
Sugent
    The DOT-OIG and FAA-AAE investigation of this disclosure did not 
substantiate the allegations and concluded that the complainant's 
allegations did not constitute any safety problems. Nonetheless, the 
OSC concluded that the report and FAA's actions are ``not reasonable,'' 
but they did not provide any technical justification to support this 
conclusion.
    The complainant alleged that wind measuring equipment at DTW was 
``faulty.'' The two types of sensors installed at DTW sometimes 
displayed different, usually small discrepancies, in wind readings, but 
the vast majority of their measurements were relatively consistent. 
Testing revealed no system flaws, and that the slight variations at DTW 
are entirely normal and characteristic of the current state-of-the-art 
in wind measurement. FAA's experts disagree with the complainant's, and 
the OSC's conclusions regarding problems with the wind sensors. We do 
not agree that the wind sensors performance at DTW is any different 
than sensors installed in locations all over the system and that the 
sensors function as intended. There is inherent imprecision in wind 
sensor technology.
    DTW opted for the newer wind sensor technology, and ``ASOS'' was 
selected as the primary wind sensor. ASOS is owned and maintained by 
NWS (NOAA, Department of Commerce), while the Wind Measuring Equipment 
(WME) is owned and maintained by the FAA. ASOS uses electronic 
transducers capable of converting pressure into an analog electrical 
signal. Pressure applied to the transducer produces a mechanical 
deflection that generates an electrical resistance change proportional 
to the pressure. Unfortunately, ASOS is susceptible to pressure changes 
when birds arrive, hover, and leave the ASOS measuring tower.
    Currently, DTW controllers see both wind sensor readouts, ASOS and 
WME. Prior to March 2012, wind sensor readouts from the ASOS were 
archived but the WME readouts were not. With a new software patch 
installed in the WME at DTW, wind readouts are now archived for a short 
period that allows local technicians to download wind sensor readouts 
if an anomaly between the two sensors is spotted. DTW is in the process 
of re-designating the WME as the primary wind sensor for their 
facility, and they soon will be trained to download archived data that 
can be analyzed following wind sensor readout discrepancies between the 
two systems at DTW.
    In the same case, but on an entirely unrelated matter, the OSC also 
criticizes FAA for its ``very slow progress'' on implementing new 
standard instrument departures (SIDs) at DTW. With redesign of the 
airspace around Chicago, the high altitude airspace between DTW and 
Ohio was largely delegated to Cleveland ARTCC (ZOB). Although delayed, 
the recent cooperation between DTW and ZOB has created options to link 
existing Standard Instrument Departures (SID) to Cleveland, Cincinnati, 
and Columbus.
    Procedures changes such as the publication of SIDs take time 
because of the careful evaluation, including flight checks, that must 
take place in order to avoid introducing new safety problems into the 
system. New DTW SIDs will be issued in the near future.

    Question 4. Have all of the issues raised in the letter, including 
repeated air traffic controller misconduct, been resolved?
    Answer. The FAA believes that all of the issues raised in the May 
8, 2012 letter have been effectively addressed, including the 
allegations of controller misconduct. However, as discussed extensively 
in our response to question 3, it is imperative that the FAA 
continually audit all previously implemented corrective actions for 
effectiveness and compliance. As previously discussed, we operate in a 
complex and dynamic environment, and we must remain ever vigilant for 
new issues which may well arise in order to ensure continued procedural 
and regulatory compliance and the highest levels of safety.

    Question 5. Given the current Federal budget pressures, what is 
your plan to keep personnel costs under control? What is your plan to 
balance agency priorities, including NextGen, against rising personnel 
costs within the agency budget as provided in the recently enacted FAA 
Modernization and Reform Act of 2012?
    Answer. Over the past five years, FAA has managed to maintain its 
annual growth in Personnel, Compensation & Benefits (PC&B) costs in the 
Operations account to 3.3 percent per year--the same rate of growth 
experienced by the Operations account as a whole. As such, PC&B costs 
accounted for 69.6 percent of total Operations spending in FY 2011, 
essentially the same percentage as FY 2006.
    There are two factors that make controlling personnel costs more 
challenging for the FAA as compared to other Federal agencies. First, 
the need to hire and retain a highly skilled and technical workforce 
creates and upward pressure on personnel costs. Second, unlike most 
other Federal agencies, FAA is required by statute to negotiate pay 
with its employee bargaining units.
    Nonetheless, the FAA has achieved some recent successes to control 
labor costs despite these challenges. Our collaboration with the 
National Air Traffic Controllers Association (NATCA) resulted in an 
extension of the 2009 collective bargaining agreement for FAA's air 
traffic controllers (referred to as the Red Book Contract). This 
extension of the Red Book contains pay raises equal to the raises 
received by other Federal employees under the General Schedule. The 
contract extension also contains a clause that does not allow any 
additional employees to go over their pay band maximums. The extension 
will slow the growth of PC&B costs for one of our largest and mostly 
highly compensated workforce segments. In addition, FAA has made 
improvements in recent years to manage overtime costs at our air 
traffic facilities. Overtime hours as a share of controller hours 
worked has fallen slightly, from 2.4 percent in 2008 to 2.1 percent 
year-to-date in 2012.
    For non-safety related positions, we have established strict 
staffing targets to help the Agency maintain staffing levels consistent 
with efficient operations. Total Full Time Equivalent (FTE) levels in 
the Operations account have subsequently plateaued at about 42,500. 
While FTEs in the Operations account averaged 2.3 percent annual growth 
from FY 2007 to FY 2009, that growth has reduced to an average of 0.4 
percent over the past two years.
    Many Air Traffic Organization (ATO) processes have been 
standardized under a ``shared services environment'' concept with 
regional resources consolidated under service centers. Since 
implementation began in 2006, we have realized a net savings and cost 
avoidance of approximately $330 million. And effective management of 
worker compensation claims has resulted in cost avoidance of over $117 
million since FY 2005.
    We continue to search for new ways to control costs in the future. 
The FAA Modernization and Reform Act of 2012 requires the National 
Academy of Sciences to review the air traffic controller and technical 
operations staffing standards to ensure the Agency continues to improve 
its methods for determining staffing for its air traffic operations. We 
look forward to reviewing the NAS findings when they become available 
and will work diligently to address their recommendations.
    The FAA is committed to realizing cost efficiencies and avoidance 
wherever possible. We have taken a hard look at our organizational 
structure, and we are making changes to create a more streamlined and 
efficient agency.

    Question 6. Growing demand for unmanned aircraft here in the United 
States is pushing the FAA to develop standards for their safe 
integration into the national airspace system, which could support as 
many as 23,000 jobs in the U.S. over the next 15 years, according to 
some estimates. If confirmed, how would you plan to safely integrate 
unmanned aircraft into the national airspace system?
    Answer. The FAA is developing new policies, procedures and approval 
processes to address the increasing desire by public and civilian 
operators to fly UAS in the NAS. Developing and implementing these new 
UAS standards and guidance is a long-term effort. As part of this 
effort, the FAA chartered a UAS Aviation Rulemaking Committee in 2011 
to develop inputs and recommendations on appropriate operational 
procedures, regulatory standards and policies before allowing routine 
UAS access to the Nation's airspace. In addition, the FAA has asked 
RTCA--a group that facilitates expert advice to the agency on technical 
issues--to work with industry to assist in the development of UAS 
standards. RTCA's technical group will address questions about how UAS 
will handle communication, command and control and how they will 
``sense and avoid'' other aircraft.
    The FAA continues to work closely with its international aviation 
counterparts to harmonize standards, policies, procedures and 
regulatory requirements.

    Question 7. We have seen an increase in the number of reported 
mishaps by controllers called ``operational errors.'' This increase has 
taken place while overall traffic levels are in decline, which should 
mean fewer errors, not more. What is the root cause of the sharp 
increase in operational errors, and what is FAA doing to address this 
serious safety problem?
    Answer. Over the past several years, the FAA has methodically 
transitioned to a non-punitive error reporting system at its air 
traffic facilities and began implementing electronic monitoring of 
controller and pilot performance. These changes in safety reporting 
have produced a wealth of information to help the FAA identify 
potential risk and take swift action to address it.
    As anticipated, these changes resulted in higher numbers of 
incident reports involving loss of required separation between aircraft 
than in previous year. Notwithstanding this increase in reporting, the 
number of incidents is very small; in fact, more than 99.9 percent of 
operations occur completely according to procedure.
    These increases in reporting are consistent with the implementation 
of similar systems in the airline industry, e.g., FOQA and ASAP 
programs, that have been extremely successful in the identification and 
reduction of potential risk and are absolutely necessary to an 
effective safety management system.
    However, we have no intention of treating our extraordinary safety 
performance as good enough.

  <bullet> First, we are moving from an events-based, reactive approach 
        to safety analysis to a risk-based proactive approach through 
        which we analyze vastly greater volumes of data in order to 
        preview, predict and prevent risk situations that we might not 
        have fully understood, or even known about, in the past.

  <bullet> Second, we are generating this greater volume of data by 
        moving to a safety culture where people are encouraged to 
        provide essential safety-related information

    As a result of these new systems we have implemented an SMS-based 
approach to separation loss mitigation. This new measure incorporates a 
risk analysis process that will increase our ability to mitigate risks 
associated with losses of separation.
    Electronic monitoring of radar data coupled with voluntary 
reporting from controllers has enabled the FAA to develop a 
standardized risk analysis process and addressed dozens of identified 
safety concerns.
    Information contained in our voluntary reporting system has 
resulted in well over 100 formal and informal corrections to; 
procedures, equipment, training, phraseology, etc. Examples:

  <bullet> Chicago O'Hare (ORD): Construction Confusion

  <bullet> Denver Centennial Airport (APA) New Wind Equipment

  <bullet> Dalton Departure procedure at Teterboro and effect on EWR 
        arrivals

  <bullet> Airline Flights Incorrect Routing at San Francisco (SFO)

    Additionally, consistent with industry best practices, the FAA is 
currently addressing five top areas to mitigate risks. The FAA 
determined the ``Top Five'' by analyzing collected safety data, 
considering the severity of an incident and the likelihood it will 
occur. The corrective action plans for each risk will reassess policy, 
procedures and training to prioritize resources. The ``Top Five'' 
includes:

  1.  Turns to Final--Arrival sequencing to final (angle and speed 
        control.) Aircraft vectors at a speed and/or angle that result 
        in an overshoot of final approach.

  2.  Parallel Runway Operations--Arrival sequencing at the same 
        altitude and on parallel runways. (Aircraft overshoots turn to 
        final at the same altitude as arrival traffic to a parallel 
        runway.)

  3.  Go-Arounds--Unexpected go-around operations. (Arrival aircraft 
        executes an unexpected go-around resulting in conflict with 
        departing traffic as well as false ASDE-X alarms triggering a 
        late go-around)

  4.  Clearance Compliance Altitude--Aircraft at other than expected 
        altitude, for example, incorrect hearback/readback.

  5.  Coordination--Lack of appropriate or incomplete coordination 
        among operational employees. (Aircraft handoff to controller at 
        an altitude or route other than expected
Examples of Specific Improvements
Chicago O'Hare (ORD): Construction Confusion
    Issue: Airport construction shortened the available runway length 
but use of the term ``full length caused confusion between pilot and 
controller. Pilots interpreted ``full length'' to mean the actual 
runway length rather than the useable runway length.
    Resolution: There was a national briefing created about ``lessons 
learned'' at ORD at towers who will be undergoing construction and/or 
are already undergoing construction. The Airport Construction Advisory 
Council followed up by amending the Controllers Handbook to eliminate 
use of the term ``full length'' from clearances whenever construction 
reduces the length of a runway, and also changed ATIS requirements to 
ensure that pilots are warned about shortened runways. Effective 
September 22, 2011, the ACAC also added requirements to the 7210.3 for 
air traffic managers to train controllers ahead of time and develop 
local directives for construction projects that affect their 
facilities. In addition, the ACAC has developed a compilation of best 
practices and a runway and taxiway construction checklist both of which 
can be found on their web page.
Denver Centennial Airport (APA) New Wind Equipment
    Issue: Faulty wind instruments at APA created a safety issue due 
the proximity of the mountains and the thunderstorms in the vicinity of 
Centennial airport.
    Resolution: A Stand Alone Weather System (SAWS) was installed in 
June 2010.
Dalton Departure procedure at Teterboro and effect on EWR arrivals
    Issue: The Dalton Departure Procedure allowed pilots to depart 
Teterboro's Runway 19 under visual flight rules (VFR) in Class D 
airspace, at the same time as IFR aircraft are arriving at Newark 
Airport directly above them in Class B airspace. Because flights 
operating under the Dalton Departure procedure remain outside of Class 
B airspace, the pilots are responsible for maintaining safe separation 
from aircraft descending into Newark.
    Resolution: N90 proposed an interim procedure to plan for a gap in 
the EWR Rwy 22L final traffic to provide an extra level of mitigation 
to minimize the probability of a TEB Rwy 19 departure on the Dalton 
conflicting with an EWR Rwy 22 arrival during a potential altitude 
excursion. Procedures were to plan for a gap in the EWR Rwy 22L final 
traffic to minimize the probability of a TEB Rwy 19 departure on the 
Dalton conflicting with a EWR Rwy 22 arrival during an unforeseen 
altitude excursion. This required several levels of coordination and 
possible Traffic Management initiatives. This requires several levels 
of coordination and possible Traffic Management initiatives. 
Additionally, the following were other changes to the Dalton Departure 
Procedure that have been implemented:

        --added a no radio/lost communications procedure,

        --added a ``wake turbulence'' advisory,

        --TEB ATCT Implemented an altitude reminder to departing 
        aircraft,

        --reduced location of the westerly turn after takeoff from 4 
        miles to 2 miles south of TEB.
Albuquerque Airport vehicle confusion
    Issue: At Albuquerque (ABQ), several airport vehicles were using 
similar-sounding and confusing call signs. This presented a safety 
issue for the Tower, since vehicle operators often took each other's 
instructions, or had to ask that the instructions be repeated. To 
change long-standing call signs and practices was a challenge for the 
city.
    Resolution: After numerous ATSAP reports, and at the urging of the 
ERC, the City of Albuquerque (the operator of the airport), the 
facility and NATCA, the parties reached agreement on new, less similar 
call signs, which were implemented in July 2011.
Airline Flight Computer Discrepancies at Denver (DEN)
    Issue: An airline flying into Denver International Airport (DEN) 
was having issues with the routings stored within the Flight Management 
System (FMS). The FMS would divert to a Standard Terminal Arrival Route 
(STAR) different than what was filed in the flight plan. This could 
cause dangerous deviations from the expected flight, placing the 
aircraft into conflict with other traffic. The issue was thought to be 
resolved with a software upgrade to the FMS. However, an ATSAP 
submitter identified that the issue was reoccurring.
    Resolution: In February 2011, the ERC shared the report with the 
airline's Aviation Safety Action Program (ASAP). The ASAP's ERC 
immediately discovered that when a pilot enters new information into 
the FMS resulting from a runway change, the FMS applies the 
preferential routing of the wrong STAR regardless of the clearance. In 
February 2011, the airline's Director of Safety immediately notified 
the pilots and the FMS was fixed within weeks. The airline's ASAP ERC 
commented that this would have taken them far longer to identify if it 
were not for the ATSAP report.
Instrument Landing System at Savannah (SAV)
    Issue: The Instrument Landing System (ILS) at Savannah/Hilton Head 
International Airport (SAV) became unusable when aircraft were 
approximately a mile from the runway threshold.
    Resolution: In January 2011, the ERC issued a Corrective Action 
Request (CAR) to address the safety problem. Technical Operations 
personnel evaluated the issue and were able to correct it by moving the 
localizer shelter and making improvements to the radar antenna. In 
March 2011, the ILS was returned to service without restrictions.
Interference with radar at Greenville-Spartanburg (GSP)
    Issue: Since July 2009, the Greer Airport Surveillance Radar (ASR) 
at Greenville-Spartanburg International Airport (GSP) has had reduced 
coverage due to the inadequate height of the radar antennae and 
surrounding tree growth. The multiple actions to mitigate the issue 
have resulted in little resolution.
    Resolution: In November 2010, the ERC issued a Corrective Action 
Request (CAR). After some reluctance, the airport authority removed the 
trees affecting the ASR in December 2011. For a long-term solution, the 
funding and construction to raise the antennae is to be completed in 
calendar year 2013.
Confusion with Student Pilots at Fargo, ND (FAR)
    Issue: In 2011, the ERC began receiving reports about an issue at 
FAR ATCT where student pilots from the University of North Dakota would 
come over to practice. The pilots had predetermined routes that they 
would fly on departure. When they would depart FAR, the controller 
would say ``proceed on course''. To the pilot, that was interpreted to 
mean proceed on their predetermined route which actually caused the 
pilot to turn back towards the airport and begin their route from 
there. For the controller, it means proceed direct from the present 
position on course, but not back towards the airport which would cause 
conflict with other departures.
    Resolution: With encouragement from the ERC, FAR ATCT met with 
representatives from UND and worked out an agreement that the 
controllers would use vectors to help the pilots join their desired 
route.
Airline Flights Incorrect Routing at San Francisco (SFO)
    Issue: On occasion, one airline's flights departing San Francisco 
International Airport (SFO) would track towards a fix that was not 
evident on their flight plan.
    Resolution: Through the Confidential Information Share Program 
(CISP), the report was shared with the airline's Aviation Safety Action 
Program (ASAP). It was discovered that the navigational data update for 
the Flight Management System (FMS) was missed mistakenly and it was 
subsequently discovered that the update did not occur at several other 
airports as well.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                           Michael P. Huerta
    Question 1a. In March of this year, you agreed to a four-year 
extension of the FAA's contract with the National Air Traffic 
Controllers Association, until July 1, 2016. Under the contract: What 
is the average compensation for the 100 highest-paid air traffic 
controllers, including overtime pay and all additional compensation 
allowed under the collective bargaining agreement?
    Answer. The maximum salary for air traffic controllers is the 
statutory cap for Federal employees of $179,700. In addition, 
controllers are eligible for premium pay, such as overtime, night, 
holiday pay, etc. In FY11, the 100 highest-paid controllers earned 
average cash compensation of $245,300. This does not include benefits 
such as pension, health, OASDI, etc.

    Question 1b. How are air traffic controller raises linked to 
performance?
    Answer. Pay increases under the recent contract extension are not 
based on individual or agency performance. The contract provides two 
raises to employees. The January raise is equal to the Presidential 
Increase so employees would not receive a raise if there are continued 
freezes in the general schedule. The second raise is paid in June and 
is fixed at 1.6 percent. The June raise will ``not be granted in any 
year in which a prohibition on step increases under the General 
Schedule (GS) is enacted by statute.''

    Question 1c. How has the recently signed contract with air traffic 
controllers affected the pay gap between air traffic controllers and 
all other FAA employees? Specifically, what is the current pay gap 
between air traffic controllers covered under the March 2012 agreement 
with all other FAA employees, in percentage terms?
    Answer. The recent contract extension calls for air traffic 
controllers to receive pay increases that are the same as those granted 
to other Federal employees for FY13-FY16. The average Certified 
Professional Controller (CPC) earned 26 percent more than the average 
non-controller FAA employee. The average earnings of all controllers 
(including both CPCs and developmentals) was 14 percent higher than the 
average non-controller FAA employee.
    In FY11, the average air traffic controller (CPCs only) earned 
$119,900 in salary and an additional $17,900 in premiums for an average 
cash compensation of $137,800. The average air traffic controller 
(including both CPCs and developmentals) earned $109,300 and an 
additional $15,600 in premiums for an average cash compensation of 
$124,900.

------------------------------------------------------------------------
                                               Cash         % above All
  Employee Group      Salary    Premiums   Compensation      Other FAA
------------------------------------------------------------------------
CPC                  $119,900    $17,900        $137,800             26%
CPC +                $109,300    $15,600        $124,900             14%
 Developmental
All Other FAA        $105,100     $4,400        $109,500             n/a
------------------------------------------------------------------------


    Question 2. What percentage of the agency's budget goes to 
personnel costs? Given the current budget situation, what is your plan 
to keep personnel costs of the agency under control?
    Answer. Nearly 70 percent of FAA's Operations budget is Personnel, 
Compensation & Benefits (PC&B) related. FAA will staff safety and 
support related positions to maintain the safety of the National 
Airspace System (NAS).
    FAA issues various workforce plans, such as the Controller 
Workforce Plan and Aviation Safety Workforce Plan that explain the 
staffing needed to meet the operational and safety requirements. For 
non-safety related positions, we have established strict staffing 
targets to help the Agency maintain staffing levels consistent with 
efficient operations. Total Full Time Equivalent (FTE) levels in the 
Operations account have subsequently plateaued at about 42,500. While 
FTEs in the Operations account averaged 2.3 percent annual growth from 
FY 2007 to FY 2009, that growth has reduced to an average of 0.4 
percent over the past two years.
    Over the past five years, FAA has managed to maintain its annual 
growth in Personnel, Compensation & Benefits (PC&B) costs in the 
Operations account to 3.3 percent per year--the same rate of growth 
experienced by the Operations account as a whole. As such, PC&B costs 
accounted for 69.6 percent of total Operations spending in FY 2011, 
essentially the same percentage as FY 2006.
    There are two factors that make controlling personnel costs more 
challenging for the FAA as compared to other Federal agencies. First, 
the need to hire and retain a highly skilled and technical workforce 
creates and upward pressure on personnel costs. Second, unlike most 
other Federal agencies, FAA is required by statute to negotiate pay 
with its employee bargaining units.
    Nonetheless, the FAA has achieved some recent successes to control 
labor costs despite these challenges. Our collaboration with the 
National Air Traffic Controllers Association (NATCA) resulted in an 
extension of the 2009 collective bargaining agreement for FAA's air 
traffic controllers (referred to as the Red Book Contract). This 
extension of the Red Book contains pay raises equal to the raises 
received by other Federal employees under the General Schedule. The 
contract extension also contains a clause that does not allow any 
additional employees to go over their pay band maximums. The extension 
will slow the growth of PC&B costs for one of our largest and mostly 
highly compensated workforce segments. In addition, FAA has made 
improvements in recent years to manage overtime costs at our air 
traffic facilities. Overtime hours as a share of controller hours 
worked has fallen slightly, from 2.4 percent in 2008 to 2.1 percent 
year-to-date in 2012.
    For non-safety related positions, we have established strict 
staffing targets to help the Agency maintain staffing levels consistent 
with efficient operations. Total Full Time Equivalent (FTE) levels in 
the Operations account have subsequently plateaued at about 42,500. 
While FTEs in the Operations account averaged 2.3 percent annual growth 
from FY 2007 to FY 2009, that growth has reduced to an average of 0.4 
percent over the past two years.
    Many Air Traffic Organization (ATO) processes have been 
standardized under a ``shared services environment'' concept with 
regional resources consolidated under service centers. Since 
implementation began in 2006, we have realized a net savings and cost 
avoidance of approximately $330 million. And effective management of 
worker compensation claims has resulted in cost avoidance of over $117 
million since FY 2005.
    We continue to search for new ways to control costs in the future. 
The FAA Modernization and Reform Act of 2012 requires the National 
Academy of Sciences to review the air traffic controller and technical 
operations staffing standards to ensure the Agency continues to improve 
its methods for determining staffing for its air traffic operations. We 
look forward to reviewing the NAS findings when they become available 
and will work diligently to address their recommendations.
    The FAA is committed to realizing cost efficiencies and avoidance 
wherever possible. We have taken a hard look at our organizational 
structure, and we are making changes to create a more streamlined and 
efficient agency.

    Question 3. Please explain how the scheduling practice for air 
traffic controllers, known as ``2-2-1'', works. Does this schedule 
present a safety issue for the travelling public? What are you doing to 
address any safety concerns raised by this scheduling practice?
    Answer. All services and industries that operate 24/7/365 encounter 
employee scheduling and human factors issues. These continuous 
operations environments are often associated with health, safety and 
emergency services.
    As with other safety service providers, air traffic control, faces 
issues with employee fatigue. To examine this issue, the FAA created a 
Fatigue Risk Management office in 2009. The establishment of this 
office within the FAA was coincident with an increased focus in the 
human fatigue area within the international aviation community, both 
commercial aviation operators and air navigation service providers. FAA 
research and analysis into the effects of fatigue in the operational 
ATC workforce has now been underway for several years.
    Our own, as well as other fatigue research, has indicated that the 
critical period for human fatigue during 24/7 operations is any period 
when an employee is required to remain on duty, awake and alert, after 
midnight. This is the time of greatest circadian pressure for humans to 
fall asleep. The research indicates that employee fatigue issues are 
present regardless of the type of schedule utilized to deliver an 
employee to that post midnight work period.
    The 2-2-1 schedule is one of several basic types of watch schedules 
utilized for air traffic controllers. The schedule is comprised of two 
(2) evening shifts, two (2) day shifts followed by one (1) middle (Mid) 
of the night shift. A typical 2-2-1 rotation would comprise the 
following shift start times for an employee; 3 PM, 2 PM, 7 AM, 6 AM and 
10 PM.
    The 2-2-1 schedule has both positive and negative fatigue aspects. 
The most negative aspect of the 2-2-1 schedule is the duration of the 
off-duty period between the second evening shift and the first day 
shift. Prior to the FAA examination of fatigue in the operational 
workforce the minimum interval for this off-duty period was 8 hours. 
Our research indicated that increasing this interval to 9 hours would 
result in a 14 percent reduction in fatigue impact and assist employees 
in combating the circadian pressure to fall asleep during the middle of 
the night shift later in the work week. The minimum off-duty time 
between these types of shifts was increased to 9 hours approximately 
one year ago.
    The most positive aspect of the 2-2-1 schedule is the extended 
recovery period between the end of last shift in a week and the 
beginning of the next work period. For a Monday through Friday work 
schedule this recovery period extends from 6 AM Friday morning until 
the beginning of the next work shift at 3 PM on the following Monday 
afternoon. This allows employees a significant period to overcome any 
accumulated sleep deficit from the prior week.
    The FAA has introduced changes into fatigue education, training and 
scheduling as a result of our ongoing research. In addition, aviation 
medicine is introducing methodologies for the identification of sleep 
apnea in both the ATC and pilot communities. We are confident that our 
efforts are increasing operational employees' ability to manage the 
effects of fatigue during their on-duty work week. We will continue our 
research and introduce further fatigue mitigations as they are 
identified.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Michael P. Huerta
    Question 1. A recent IG report highlighted that the FAA has not yet 
established total program cost, schedule, or performance baselines for 
all of the six NextGen transformational programs. When does the agency 
plan to do this, since without baselining we will not have complete 
information about when these programs will be completed, what they will 
deliver, and how much they will cost the American taxpayer? Can you 
please give a specific exact date or date range.
    Answer. The Inspector General's Office report suggests that it is 
both possible and desirable to establish cost, schedule and performance 
baselines for the entire life cycle of a program in its earliest stages 
of research and concept development. This is contrary to well 
established best practices as reflected by the Office of Management and 
Budget Circular A-11 Appendix J Principals of Budgeting for Capital 
Assets. As directed by the Circular, agencies should implement programs 
in phased, successive segments and make use of prototyping and pilot 
programs in order to gain better information before moving into 
production. The FAA Acquisition Management System (AMS) Lifecycle 
adheres to this best practice and policy guidance. The AMS requires 
five key decision points across six phases of work designed to mature 
concepts and define requirements for major acquisition investments. At 
each decision point, the work that is to be done during the phase is 
approved, the agency's enterprise architecture reflects the schedule by 
which the work is anticipated to be completed, and a limited amount of 
funding is provided to accomplish this work. As part of each decision 
point, the FAA considers the estimated cost and benefit of the entire 
program not just the immediate segment--but the FAA also recognizes 
that in the earliest stages these estimates are not, and cannot be 
precise.

  <bullet> The beginning phases are Service Analysis and Concept and 
        Requirements Definition (CRD). During these phases both 
        technical and operational analyses are conducted to determine 
        the operational needs, shortfalls, rough order cost estimates, 
        and technical alternatives to achieve the desired improvements 
        to the national airspace system, and to ensure operational 
        needs are recorded in the FAA's Enterprise Architecture..

  <bullet> Before progressing beyond CRD, into the next phase, the 
        FAA's Joint Resources Council (JRC) determines if the program 
        has completed sufficient analysis and engineering assessments 
        to define technical requirements for a solution to the need.

  <bullet> The middle phases are Initial Investment Analysis and Final 
        Investment Analysis. Initial Investment Analysis includes 
        analyzing of performance, cost, benefit, and risk of different 
        alternative solutions to the need, developing the business case 
        for the alternatives, updating program requirements, and 
        ensuring a mature safety assessment. Using this information, 
        the JRC selects one alternative solution for further analysis 
        and planning. During Final Investment Analysis, detailed cost 
        and schedule estimates, and other analyses are conducted 
        specific to the chosen alternative. This information is 
        presented to the JRC for decision. If the program receives 
        approval--the ``Final Investment Decision'' or FID in AMS 
        terminology--the program then receives a financial, schedule, 
        and performance baseline and the Agency proceeds with the 
        necessary contract awards.

  <bullet> The last phases are Solution Implementation and In-Service 
        Management. During solution implementation, contractors 
        typically develop systems, equipment, or services and FAA 
        oversees the effort. When the system and other deployment 
        planning activities are completed, the JRC makes an in-service 
        decision authorizing deployment of the system into the national 
        airspace system.

    As of June of 2012 Automatic Dependent Surveillance-Broadcast (ADS-
B), Collaborative Air Traffic Management-Technologies (CATM-T), System 
Wide Information Management (SWIM) and DATA Communications are 
baselined. The Joint Resources Council made a Final Investment Decision 
and established the baseline for the first segment of the National 
Airspace System Voice Switch on July 18. The NextGen Network Enabled 
Weather (NNEW) received its Investment Analysis Readiness Decision in 
December 2010 and is scheduled for a Final Investment Decision in 
September 2013.
    These investment decisions are not the last that these programs 
will see. The transformational programs are not ``end-state'' programs. 
Rather, they are interrelated building blocks upon which the FAA will 
continue to grow, in order to meet the changing demands of all aviation 
users, as well as allow for evolving technology. For example, ADS-B is 
being purchased as a service, instead of purchasing and installing an 
FAA infrastructure, precisely because technology is quickly evolving, 
which would limit our ability to meet service improvements required by 
our customers. As such, and consistent with OMB guidance, the 
transformational programs are built in segments. These are included in 
the Enterprise Architecture (EA), which establishes a most likely path 
for implementation and the evolution of the National Airspace System 
(NAS). Since the EA extends beyond a decade, we develop the levels of 
planning according to the maturity of the investment. For near-term 
investments, the detail provided in the EA is of higher fidelity 
reflecting the baseline decision made at the final investment. Beyond 
the ten-year horizon, the plan provides an affordable estimate for the 
outyears, along with projected milestones, schedules and costs, based 
upon engineering judgment for the long-term investments.

    Question 2. The En Route Automation Management (ERAM) system is a 
backbone for other NextGen platforms like System Wide Information 
Management (SWIM). The IG Report highlighted that ERAM is expected to 
be delayed by four years. What is causing the delay in ERAM and how 
does it affect progress on NextGen in general? Do you have an estimate 
on cost increases because of the delay?
    Answer. The Federal Aviation Administration (FAA) has made 
substantial progress on the ERAM program since the Office of Inspector 
General (OIG) began the subject audit. The FAA has already implemented 
several of the OIG's recommendations.
    Early in the deployment of the system, the operational runs at the 
key sites (Salt Lake City and Seattle) identified problems that were 
not seen during the multiple testing phases conducted at the FAA's 
William J. Hughes Technical Center. Therefore, the FAA decided to 
suspend the waterfall in order to address the critical issues 
identified at the key sites and prepare for sustained operations.
    The original ERAM program (2003) was rebaselined in June 2011 to 
include a $330M cost variance and a three-year, eight-month schedule 
variance. The program is currently operating within that new baseline. 
The last site Operational Readiness Date (ORD) milestone shifted from 
December 2010 to August 2014. Although the agency will continue to 
adjust deployment dates for individual sites within the approved 
baseline, there is a high degree of confidence in the program's final 
completion date. To date, the ERAM delays have had a minimal impact to 
the deployment of NextGen capabilities.
    Beginning in early 2011, the ERAM Program Office has undertaken a 
series of management initiatives to also help get the program back on 
track. This includes addressing contractual, strategic, structural, 
process, personnel, and incentive aspects of the program's overall 
approach.
    The OIG's assessment appears to have been based upon the state of 
the program in October 2010 before the system achieved major deployment 
milestones. Since that time, those milestone accomplishments include:

  <bullet> Achieving Initial Operating Capability (IOC) at seven more 
        sites, bringing the current total to nine sites.

  <bullet> Achieving ORD at two of those nine sites, and achieving 
        continuous operations at another three (meaning they are 
        operating on ERAM with no planned fall-back to the legacy HOST 
        system), while the remainder continue to work through the 
        progression of longer and longer operational runs toward 
        continuous operations.

  <bullet> Declaring IOC on the first ERAM software release enabled 
        with Automatic Dependent Surveillance Broadcast (ADS-B), 
        allowing for operational use of both ERAM and a key NextGen 
        program in Houston.

  <bullet> Decommissioning of the legacy HOST system at Seattle and 
        Salt Lake Centers.

    The growing level of ERAM-enabled operations has led to multiple 
instances where nearly one half of the Nation's air traffic was being 
served by ERAM-based air traffic control procedures. Since December of 
2011, the system has accumulated over 2,600 hours of operations across 
a range of varying airspace needs and traffic volumes, excluding Salt 
Lake and Seattle. The program is well positioned to continue to 
activate sites within the current budget and schedule as planned into 
FY13.

    Question 3. One of the major hurdles to successfully transition to 
NextGen is to have air carriers equip their aircraft with appropriate 
technology. However, we know they are hesitant to invest in new 
technology until there is sufficient guarantee that they will stand to 
benefit from new air traffic control technologies. How are you going to 
address their concerns and what progress has the agency made in regards 
to the provisions in the FAA Modernization and Reform Act on 
incentivizing air carriers to equip?
    Answer. The user community has requested more clarity and detail in 
the FAA's plans for implementing NextGen capabilities at specific 
locations in order to assist in user investment decisions. The FAA has 
provided more specificity in the NextGen Implementation Plan and will 
continue to provide updates as information becomes available. 
Additionally, the FAA has collaborated with the NextGen Advisory 
Committee (NAC) to work through many of the challenges associated with 
NextGen implementation, including equipage and incentives.
    To address concerns with regard to incentivizing NextGen equipage, 
the agency is evaluating incentive initiatives--both financial and 
operational. Financial and operational incentives are related 
activities and we are treating them as such. Work for both incentive 
tracks is underway.
    Section 221, Public-Private Partnerships, in the Act granted 
authority for the Secretary of Transportation to establish an equipage 
incentive program to equip U.S. registered aircraft in the interest of 
achieving NextGen capabilities. The goal for an equipage program is to 
encourage deployment of NextGen capable aircraft in the NAS sooner than 
would have occurred otherwise. The FAA is currently evaluating various 
options to see how this provision might allow us to provide incentives 
for equipage that would accelerate the benefits of NextGen. 
Specifically, FAA would aim to increase the speed of adoption of base 
levels of NextGen equipage, which will accelerate delivery of NextGen 
benefits by reducing the time of mixed equipage operations.
    The agency held a public meeting on May 30, to seek initial input 
from interested stakeholders about program design and implementation of 
an equipage incentives program for both commercial aircraft and general 
aviation to equip their aircraft with NextGen capabilities. The agency 
also released a market survey to solicit interest from both operational 
stakeholders and those interested in being private partners. A second 
public meeting is planned for August 7 to share the evolution of our 
thinking based on what the agency heard from stakeholders, to seek 
additional information, and to communicate the agency's next steps.
    The FAA understands that financial incentives by themselves will 
most likely be insufficient to encourage operators to equip and that 
operational benefits must come with any financial incentive. Over the 
last several years, the FAA has worked with various stakeholders to 
demonstrate in an operational environment the benefits of various 
NextGen capabilities.
    For example, one NextGen initiative, Greener Skies Over Seattle, 
has the goal to prove that satellite-based navigation approaches can be 
flown using the same separation standards as procedures using ground-
based instrument landing systems have today. Initial feedback on the 
Greener Skies initiative has been positive, producing fuel savings. The 
FAA will add 27 new procedures, expanding the use of Optimized Profile 
Descents (where the airplane essentially glides in idle to the runway 
threshold), Area Navigation (RNAV) arrivals (which are GPS-guided 
arrivals) and Required Navigation Performance (RNP) approaches (which 
take RNAV to an additional level of precision). These procedures will 
be available to any properly equipped aircraft next spring.
    Additionally, the FAA is working with several air carriers to 
obtain Automatic Dependent Surveillance-Broadcast (ADS-B) data to 
validate the business case for early adoption of new equipment. These 
efforts are governed by memorandums of agreement in which the 
government and the air carriers contribute to the project.
    Realizing NextGen benefits requires more than installed avionics or 
technologies. Procedures, training, and policies for both operators and 
controllers are necessary to implement the capability that produces 
operational benefits.
    Both the NAC and the NextGen Mid-Term Implementation Task Force 
requested the FAA to identify candidate NextGen capabilities for 
operational incentives. The FAA held a public meeting on March 13 to 
solicit stakeholder feedback on candidate operational scenarios. The 
agency has included this stakeholder feedback in its implementation 
planning activities.
    Among the candidates under consideration for implementation are 
scenarios providing priority service to aircraft capable of performing 
complex precision approaches at specified airports in the National 
Airspace System (NAS) during limited time periods. The candidate 
scenarios also provide operational solutions such as: 1) separating air 
traffic in areas where multiple airport operations conflict, 2) 
providing improved approaches in poor weather at airports with closely 
spaced parallel runways, 3) increasing access to specific Atlantic 
routes, and 4) enabling more fuel-efficient operations in specific 
Pacific oceanic routes.
    The FAA continues to encourage user equipage through various 
means--demonstrations and incentives--and to develop both operational 
and financial incentives.

    Question 4. Could you provide a status on what FAA is doing to 
improve airspace procedures for aircraft flying into and out of major 
and non-major metropolitan airports (implementing procedures such as 
Area Navigation and Required Navigation Performance)? Where does the 
FAA stand in improving airspace efficiencies as part of delivering 
NextGen to the American public?
    Answer. Area Navigation (RNAV) and Required Navigational 
Performance (RNP) are the key components of Performance-Based 
Navigation (PBN) in the National Airspace System (NAS). The FAA, by 
adopting PBN, has improved airspace and procedures design which has led 
to improvements in system capacity and efficiency. It has done this by 
leveraging existing and emerging cockpit capabilities and by working in 
close collaboration with key stakeholders. Since 2002, the FAA and 
industry have formally collaborated to plan and implement PBN routes 
and procedures across the NAS.
    There are currently 351 PBN approaches published and in use at the 
35 Core airports. For the 35 non-Core airports identified by the FAA to 
serve as a basis of comparison, there are currently 21 published 
approaches. However, the FAA is aggressively pursuing an active PBN 
development and publication process that will substantially increase 
the number of published approaches. The implementation plan for 
deploying PBN approaches at Core airports calls for an additional 73 
new procedures by the end of 2012 with 162 completed by the end of 
2013. Another 110 will be added by the end of 2014. These objectives 
are well ahead of the targets directed in recent Congressional 
legislation. Further, the total number of new procedures published for 
the selected non-Core airports will reach 48 by the end of this 
calendar year, with a total of 75 scheduled before the end of 2014. 
Again, this is well ahead of the targets established in the FAA's 
Authorization.
    Additionally, the FAA in cooperation with the RTCA Task Force 5, 
has embarked on the Optimization of Airspace and Procedures in the 
Metroplex (OAPM). This process is a systematic, expedited approach to 
optimizing both procedures development and airspace redesign in 21 key 
metropolitan areas. To date, the FAA has initiated study team efforts 
at eight (8) of the 21 metropolitan locations. Further design and 
implementation efforts are underway at six (6) of those locations. FAA 
is on track to address all 21 locations through OAPM or traditional PBN 
study efforts by the end of FY 2016.

    Question 5. The FAA Modernization and Reform Act provides the FAA 
Administrator with the authority to improve environmental reviews via 
the use of categorical exclusions for performance-based navigation 
procedures. Are you providing such exclusions while improving 
procedures in and around major airports? If so, how has this speed up 
the deployment of performance-based navigation?
    Answer. The FAA has several categorical exclusions that are 
currently being used for performance-based navigation (PBN) procedures. 
The FAA Modernization and Reform Act of 2012 established two additional 
legislative categorical exclusions for procedures that meet specified 
conditions. It has been necessary for the FAA to undertake technical 
and legal analyses as a prerequisite for developing implementing 
guidance that must comport with these conditions. These analyses are 
currently nearing completion. At the same time, we are adding the two 
categorical exclusions, using the text directly from the Act, to the 
list of categorical exclusions in the update to FAA Order 1050.1E, 
which provides the FAA's guidance for implementing the National 
Environmental Policy Act (NEPA). At this time, it is premature to 
report on the practical effect of the new categorical exclusion 
authority.

    Question 6. The FAA has already issued a rule requiring all air 
carriers operating in U.S. controlled airspace to equip with ADS-B Out 
by 2020. As required in the FAA Modernization and Reform Act, will the 
FAA be conducting rulemaking anytime soon to require air carriers to 
equip with ADS-B In by 2020? What is the status of the agency's 
interaction with the ADS-B In Aviation Rulemaking Committee?
    Answer. Section 211 (b) in the FAA Modernization and Reform Act 
directs the FAA to initiate a rulemaking within the year (by February 
2013) with guidelines and regulations for ADS-B In technology and 
requires ADS-B In to be mandated by 2020 for congested airspace, 
congested airports, or in any other airspace deemed appropriate. On May 
30, 2012, the charter for the existing ADS-B In Aviation Rulemaking 
Committee (ARC) was extended to assist the agency in meeting the 
requirements of this language.
    The FAA tasked the ADS-B In ARC to provide recommendations on how 
to target an ADS-B equipage mandate that could offer sufficient 
benefits to cover costs. The ARC has been asked to identify: (a) in 
what airspace, and/or (b) at what airports, and/or (c) by what other 
criteria one could apply to limit an ADS-B-In mandate (examples 
including, but not limited to, by operator class or aircraft class). It 
should be noted that the ARC may indicate resistance to a compliance 
date of 2020, given that currently available ADS-B-In equipment 
standards and guidance is limited for a number of applications.
    After receiving the recommendations from the ARC this fall, the FAA 
will be able to decide among options for moving forward and initiate 
rulemaking formally by the February 14, 2013 deadline. Options for the 
requirements could be, for example, tying the ADS-B In mandate to the 
airports capacity-constrained by slot regulations (i.e., New York 
airports). The ARC may develop other options as part of their tasking.

    Question 7. I know the FAA has agreements with some airlines like 
JetBlue and UPS to help deploy initial ADS-B avionics for trials that 
will help incentivize fleet-wide acquisition of this equipage. Are any 
further agreements to fund ADS-B equipage planned with U.S. commercial 
or general aviation carriers?
    Answer. To expedite early equipage, the agency has signed 
agreements with several airlines, including JetBlue, United, UPS, and 
U.S. Airways. These agreements are set up to demonstrate the benefits 
of advanced ADS-B applications and procedures during revenue service 
and allow the FAA to share costs and risks with the participants. The 
operational evaluations will give the agency detailed cost and benefit 
data, and encourage airlines to equip early to capitalize on ADS-B 
benefits. Under these agreements, the following equipage will occur:

  <bullet> 35 JetBlue A320 aircraft

  <bullet> 12 United 747 aircraft (DO-260 complete, upgrades to be rule 
        compliant in 2013)

  <bullet> 20 USAirways A-330 aircraft

  <bullet> 143 UPS aircraft (747, 767, A300, and MD-11)

    The agency has also agreed to fund upgrades to the avionics for 
approximately 54 helicopters in the Gulf of Mexico. These operators 
voluntarily equipped with an earlier version of ADS-B avionics before 
the ADS-B rule requirements were published. In addition, the FAA will 
award a contract this fall to upgrade approximately 400 air taxi 
aircraft that were equipped under the legacy Capstone program in 
Alaska.
    In summary, the ADS-B program has entered into several additional 
agreements beyond those with JetBlue and UPS that will help fund early 
ADS-B equipage. The ADS-B program office may consider additional 
agreement opportunities if proven to be an economically sound decision; 
however, given the current funding limitations, these agreements are 
expected to be limited. The FAA anticipates voluntary equipage will 
increase in 2013 and beyond, as more certified, rule-complaint avionics 
become available.

    Question 8. In order for NextGen to be successful, FAA leadership 
will need to initiate a culture change that will ensure that workforce 
at all levels (analyst, manager, executive) are empowered to breakdown 
intra-agency and inter-agency barriers and promote cross-organizational 
learning and collaboration. What steps have you taken so far to achieve 
this culture change, what have been your biggest challenges, and what 
more needs to be done?
    Answer. NextGen has a high priority in the Administration, the 
Department of Transportation and the FAA. Its complexity and 
interdependencies make it different from anything the FAA has ever 
done. In 2010, an external organization was tasked by the FAA 
Administrator to diagnose the current state of NextGen via interviews 
and surveys with employees across the Agency. The assessment resulted 
in two key recommendations to better position the agency to 
successfully implement NextGen:

  <bullet> Create increased internal and external visibility of the 
        NextGen organization by establishing a direct line of reporting 
        to the Deputy Administrator, as well as a restructure of 
        positions and groups to better align with organizational goals 
        and the NextGen mission. The agency implemented this change as 
        part of our reprogramming request last year.

  <bullet> Develop a process in which an idea is developed and 
        implemented in the National Airspace System (NAS) through 
        cross-agency collaboration, increased transparency, defined 
        roles and responsibilities, and establishment of clear decision 
        authorities.

    NextGen requires an expanded and more collaborative acquisition 
process for the NAS than we have traditionally used. From May to 
September of 2011, the Functional Design Consideration Team (FDCT) 
worked extensively to address the above recommendations. The FDCT 
included members from the NextGen organization and representation from 
across the agency. Specifically, the group developed the Ideas to In-
Service framework (i2i) to move a concept from an idea to in-service 
management. Highlights of i2i include:

  <bullet> A deliberate reduction in ``hand-offs'' in favor of 
        collaboration. NextGen program management offices, operations 
        and other FAA offices engage throughout the capability 
        lifecycle from beginning to end.

  <bullet> A single FAA-wide process for changes to the NAS that works 
        with all contributors to the NAS.

  <bullet> A collaborative approach that requires shared 
        accountability, responsibility and risk. This is achieved 
        through direct and obligatory engagement.

  <bullet> Capture Teams, which consist of representatives across the 
        agency who are responsible for activities such as requirements 
        management, configuration management, and assumption/constraint 
        management. Capture Teams minimize rework and retain the same 
        stakeholders to manage a portfolio of products from the 
        managing requirements stage all the way through to in-service 
        management.

    The framework was approved on September 26th by the FAA's NextGen 
Management Board (NMB). The FAA is currently in the process of 
integrating i2i into the agency's training and workflows.
    The FAA also created the Program Management Organization or PMO. 
This new central program office within the Air Traffic Organization 
assembles in one organization the majority of programs that specialize 
in program management. This allows our operational groups to focus on 
the key daily mission of safely separating air traffic and maintaining 
our airspace system. It allows our program organization to focus on 
managing for better outcomes by developing improvements to our airspace 
and making sure these solutions are on time, cost effective and within 
scope.
    The PMO will also ensure greater visibility, tighter alignment and 
closer integration of complex, interdependent NextGen initiatives and 
innovative technology. The PMO will play a critical role in the success 
of NextGen by acting as the bridge between strategic requirements and 
tactical program implementation to improve the safety and efficiency of 
our NAS.
    The PMO's success will depend on developing and maintaining 
relationships with other FAA organizations. Most critical among these 
are our relationships with NextGen, which will help set the overall 
direction of some of our highest priority program work, and with 
Mission Support's requirements and concept validation office, which 
will help ensure operational adaptability and validity.
    The PMO will play a critical role in each of the tenets of our new 
flight plan, Destination 2025: moving to the next level of safety, 
creating a workplace of choice, delivering aviation access through 
innovation, sustaining our future, and advancing global collaboration.
    The FAA also continues our collaborative work with other agencies. 
The JPDO provides a National, big-picture perspective that encompasses 
a broader Federal view for air transportation than just FAA. The JPDO 
ensures efficient coordination and collaboration among NextGen partner 
agencies. It addresses key interagency priorities identified by the 
Cabinet-level Senior Policy Committee (SPC) for NextGen.

    Question 9. The FAA's 2012 Air Traffic Controller Workforce Plan 
details the fact that the FAA staffed 20 of 23 en route air traffic 
control centers and 237 of the FAA's 293 terminal facilities above the 
maximum staffing range. Considering the FAA sets these ranges 
themselves, it appears you have hired way too many controllers. 
Understanding that FAA is expecting a wave of retirements and there is 
a need to train incoming controllers, I still think there is a problem, 
especially considering that ten of the en route centers and 67 of the 
terminal facilities have at least as many certified professional 
controllers hired as the high staffing ranges prescribed for total 
controller staffing. In a time of economic and fiscal challenges, the 
entire Federal government is cutting back on its spending and Federal 
agencies are tightening their belts. Can you explain this overstaffing, 
especially given the high cost of air traffic controller salaries?
    Answer. In many facilities, the current Actual on Board (AOB) 
number is higher than the range maximum. This is because the workforce 
includes larger numbers of developmental controllers in training to 
offset expected future attrition. The FAA hires 2-3 years in advance of 
expected attrition so that trainees are fully prepared to take over 
responsibilities when senior controllers retire.
    As noted above, some facilities have certified professional 
controllers (CPCs) above the range maximums. There are multiple reasons 
this can occur:

        1. Changes in Traffic--Traffic levels are projected to increase 
        over next the few years after a period of flat to slightly 
        negative traffic growth. Increased traffic operations within 
        ATC facilities require more efficient staff usage and increased 
        staffing at some facilities. Given the prolonged training 
        cycles and compounding of traffic growth during that period, 
        the FAA must hire now to meet future demand.

        2. Changes in Attrition--Retirement decisions are made by 
        individual Air Traffic Controllers and therefore difficult to 
        project at an individual level. FAA has been very accurate at 
        predicting system-wide retirements in recent years, but 
        experiences greater variability at the individual facility 
        level.

    Retirement behavior has been impacted in recent years by 
externalities such as current economic conditions and the labor 
contract (NATCA) situation. Any improvement in macro economic 
conditions may cause an increase in Controller retirements. The recent 
NATCA contract extension will likely not drive significant changes in 
Controller retirement behavior.
    Because it takes 2-3 years to train new controllers, and because 
FAA does not typically force controllers to move to other locations, 
unexpected changes in traffic and attrition occasionally lead to 
overstaffing at some facilities.
    Staffing Ranges are updated every year as part of the Controller 
Workforce Plan development process. In general, the system-wide 
staffing ranges have been dropping over the past 5 years. Mostly driven 
by reduced traffic, the system-wide total range is now several hundred 
lower than it was five years ago. With these reduced ranges, lower 
attrition than expected can result in relatively higher levels of CPCs 
on board relative to these reduced ranges at some facilities. 
Similarly, higher than normal training success rate or reduced training 
times can lead to additional CPCs onboard certain facilities.

    Question 10. In February, the FAA announced proposed rules to raise 
the qualifications for first officers from 250 hours to 1,500 hours. 
Included in these rules are two exceptions that provide flight hour 
credit for military pilots and baccalaureate aviation degrees. If this 
rule becomes permanent, how much more difficult will it be for 
carriers, especially regional carriers, to find first officers that 
qualify?
    Answer. The changes to first officer qualifications will affect 
pilot supply for the airlines, but the magnitude of the impact is 
uncertain. The FAA developed the proposed rules in response to the 
Congressional requirements of P.L. 111-216, which required that all 
pilots in part 121 operations have an Airline Transport Pilot (ATP) 
certificate. Consistent with the statute, the FAA proposed to allow 
academic and military credit in place of flight hours in issuing a 
restricted ATP certificate. While pilot supply is not the reason the 
FAA believes a restricted ATP is appropriate, it addresses some of the 
pilot supply concerns.

    Question 11. It is my understanding that the FAA is considering the 
development of a new policy where the FAA, in its airspace hazard 
determinations, would require consideration of airline One Engine 
Inoperative (OEI) procedures upon take-off at airports. It appears to 
me this change would have an enormous impact on private property 
rights, building heights, urban development, and jobs. Can you please 
provide the Committee with an update on this issue and let us know if 
the FAA intends to provide a notice-and-comment period for interested 
stakeholders or a comprehensive cost-benefit analyses?
    Answer. The FAA has not made any policy changes pertaining to one 
engine inoperative procedures. However, there have been discussions 
within the FAA about whether one engine inoperative procedures should 
be included in aeronautical studies considered under Title 14 Code of 
Federal Regulations, Part 77. If the agency decides to pursue a policy 
change of this nature, we will provide notice and comment in the 
Federal Register.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Pat Toomey to 
                           Michael P. Huerta
    Question 1. In the past, the FAA has stated that the Federal 
Aviation Administration Authorization Act of 1994 and the Federal 
Aviation Administration Reauthorization Act of 1996 supports its 
position that mineral rights on airport lands are subject to the 
Airport Revenue Use Restriction. What precise language of the 1994 Act, 
the 1996 Act or the congressional record supports the FAA's position 
that Congress mandated that mineral rights on airport property are 
subject to the Airport Revenue Use Restriction?
    Answer. Over time, FAA has been directed by Congress on several 
occasions to ensure that airports are as financially self-sustaining as 
possible. Listed below is the specific Congressional language on 
airport financial self-sustainability as well as specific language on 
mineral revenue from airports. In addition, provided below is an 
explanation as to how FAA has implemented those congressional 
requirements. Language particularly pertinent is bolded below.
House Conference Report No. 103-677, August 5, 1994
    60. Section 112. Revenue Diversion. Secretary was required to 
establish within 90 days from the date of enactment, policies and 
procedures to enforce grant assurances requiring airports to develop 
fee structures to make their operations self sustaining, and 
prohibiting diversion of revenues.
    61. Section 110. Policy Statement on Airport Fees. Adds policy 
statements that airport rates and fees must be reasonable and used only 
for purposes not prohibited by the Act, that airports should be as self 
sustaining as possible, and that airports should not seek to create 
surpluses which exceed the amounts needed for the airport system, 
including reasonable reserves and allowances for contingencies.
P.L. 103-305 (August 23, 1994)
    Section 110. Airport Fees Policy. 49 U.S.C. Section 47107(a)(13) 
that airports should be as self-sustaining as possible under the 
circumstances existing at each particular airport and in establishing 
new fees, rates, and charges, and generating revenues from all sources, 
airport owners and operators should not seek to create revenue 
surpluses that exceed the amounts to be used for airport system 
purposes and for other purposes for which airport revenues may be spent 
under section 47107(b)(1) of this title, including reasonable reserves 
and other funds to facilitate financing and cover contingencies.''
    Section 112 Additional Enforcement Against Illegal Diversion of 
Airport Revenue. 49 U.S.C. 47107(l) Policies and Procedures To Ensure 
Enforcement Against Illegal Diversion of Airport Revenue. (1) In 
general.--Not later than 90 days after the date of enactment of this 
subsection (August 23, 1994), the Secretary of Transportation shall 
establish policies and procedures that will assure the prompt and 
effective enforcement of subsections (a)(13) and (b) of this section 
and grant assurances made under such subsections. Such policies and 
procedures shall recognize the exemption provision in subsection (b)(2) 
of this section and shall respond to the information contained in the 
reports of the Inspector General of the Department of Transportation on 
airport revenue diversion and such other relevant information as the 
Secretary may by law consider. (2) Revenue diversion.--Policies and 
procedures to be established pursuant to paragraph (1) of this 
subsection shall prohibit, at a minimum, the diversion of airport 
revenues (except as authorized under subsection (b) of this section) 
through--(A) direct payments or indirect payments, other than payments 
reflecting the value of services and facilities provided to the 
airport; (B) use of airport revenues for general economic development, 
marketing, and promotional activities unrelated to airports or airport 
systems; (C) payments in lieu of taxes or other assessments that exceed 
the value of services provided; or (D) payments to compensate 
nonsponsoring governmental bodies for lost tax revenues exceeding 
stated tax rates. (3) Efforts to be self-sustaining.--With respect to 
subsection (a)(13) of this section, policies and procedures to be 
established pursuant to paragraph (1) of this subsection shall take 
into account, at a minimum, whether owners and operators of airports, 
when entering into new or revised agreements or otherwise establishing 
rates, charges, and fees, have undertaken reasonable efforts to make 
their particular airports as self-sustaining as possible under the 
circumstances existing at such airports. (4) Administrative 
safeguards.--Policies and procedures to be established pursuant to 
paragraph (1) shall mandate internal controls, auditing requirements, 
and increased levels of Department of Transportation personnel 
sufficient to respond fully and promptly to complaints received 
regarding possible violations of subsections (a)(13) and (b) of this 
section and grant assurances made under such subsections and to alert 
the Secretary to such possible violations.
H.R. Rep. 104-714(I) (July 26, 1996)
    Revenue Diversion . . . Current law 49 U.S.C. 47107(b) requires any 
airport receiving an AIP grant to promise, as a condition to that 
grant, that all revenues generated by the airport will be spent on the 
capital and operating costs of that airport. This prohibition against 
revenue is designed to prevent airports from using their monopoly power 
to gouge airlines and other airport users in order to build huge 
surpluses that could be diverted to other local programs that have 
nothing to do with aviation. Given that most airport users do no vote 
in the area of the airport but are merely visiting or making 
connections, it was feared that local officials would be tempted to 
raise airport fees rather than local taxes of those fees could be used 
for nonairport projects. The revenue diversion prohibition ensures that 
money raised at the airport will be spent on the airport. In light of 
the important safety, capacity, and noise mitigation needs at most 
airports, it is vital that the money is spent in this way. The revenue 
diversion prohibition was also imposed in recognition of the fact that 
money is fungible. Congress did not want an airport to receive an AIP 
grant for a specific project and then divert a like amount of money off 
the airport for a nonairport purpose. The revenue diversion prohibition 
ensures that all airport and AIP money is used for airport purposes.
P.L. 104-264 (October 9, 1996) Section 802. Findings; Purpose
    (a) In general, Congress finds that (1) section 47107 of title 49, 
United States Code, prohibits the diversion of certain revenue 
generated by a public airport as a condition of receiving a project 
grant; (2) a grant recipient that uses airport revenue for purposes 
that are not airport related in a manner inconsistent with chapter 471 
of title 49, United States Code, illegally diverts airport revenues; 
(3) any diversion of airport revenues in violation of the conditions 
referred to in paragraph (1) undermines the interest of the United 
States in promoting a strong national air transportation that is 
responsive to the needs of airport users; (4) the Secretary and the 
Administrator have not enforced airport revenue diversion rules 
adequately and must have additional regulatory tools to increase 
enforcement efforts; and (5) sponsors who have been found to have 
illegally diverted airport revenues . . .
    (b) Purpose. The purpose of this title is to ensure that airport 
users are not burdened with hidden taxation for unrelated municipal 
services and activities by (1) eliminating the ability of any State or 
political subdivision thereof that is a recipient of a project grant to 
divert airport revenues for purposes that are not related to an 
airport, in violation of section 47107 of title 49, United States Code; 
(2) imposing financial reporting requirements that are designed to 
identify instances of illegal diversions referred to in paragraph (l); 
(3) establishing a statute of limitations for airport revenue diversion 
actions; (4) clarifying limitations on revenue diversion that are 
permitted under chapter 471 of title 49, United States Code; and (5) 
establishing clear penalties and enforcement mechanisms for identifying 
and prosecuting airport revenue diversion.
Policy and Procedures Concerning the Use of Airport Revenue (Revenue 
        Use Policy), 64 Fed. Reg. 7,696, 7,702 (Feb. 16, 1999)
    Just as proceeds from the sale or lease of airport property 
constitute airport revenue, proceeds from the sale or lease of a 
partial interest in the property--i.e., water or mineral rights--should 
also be considered airport revenue . . . In addition, the revenues 
generated by these activities will still flow to the sponsor for its 
use for a legitimate local governmental activity, the operation and 
development of its airport.
House Conference Report No. 112-381, February 1, 2012
    Section 813. Use of Mineral Revenue at Certain Airports. In 
General. Notwithstanding any other provision of law, the Administrator 
of the Federal Aviation Administration may declare certain revenue 
derived from or generated by mineral extraction, production, lease, or 
other means at a general aviation airport to be revenue greater than 
the amount needed to carry out the 5 year projected maintenance needs 
of the airport in order to comply with the applicable design and safety 
standards of the Administration.
    FAA implementation of Congressional requirements on airport 
financial self-sustainability:

        In 1999, the FAA published its Policy and Procedures Concerning 
        the Use of Airport Revenue (64 Fed. Reg. 7696) (Revenue Use 
        Policy). Among other things, this policy defined mineral rights 
        revenue as revenue derived from the sale of sponsor owned 
        mineral, natural, agricultural products or water taken from the 
        airport. Prior to 1999, the FAA did not have a formal Policy 
        pertaining to revenue use, including revenues from mineral 
        royalties. The Revenue Use Policy was developed in response to 
        Congressional mandates. First, under the 1994 FAA Authorization 
        Act, Congress instructed the DOT Secretary to establish 
        policies and procedures to assure enforcement of the airport's 
        self-sustaining and revenue use grant assurances (codified at 
        49 U.S.C. Sec. 47107(a)(13) and 49 U.S.C. Sec. 47107(b) 
        respectively). Specifically, under 49 U.S.C. Sec. 47107(b), 
        Congress imposed a revenue-use requirement on recipients of FAA 
        airport development grants. This statute defines airport 
        revenue as ``revenues generated by a public airport.'' [49 
        U.S.C. Sec. 47107(b)(1)]

    FAA interprets the FAA Modernization and Reform Act of 2012, 
Section 813 as clearly recognizing that revenue derived from the 
extraction of minerals on a federally obligated airport is airport 
revenue. Congress provided a process for using mineral revenue at 
general aviation airports for local transportation infrastructure 
projects. Congress did not provide a similar process for commercial 
service airports.

    Question 2. For purposes of its Airport Revenue Use Restriction, 
the FAA has stated that a Water Treatment Facility would not be subject 
to the Airport Revenue Use Restriction but that mineral rights would 
be. What is the distinction between revenues generated from a Water 
Treatment Facility and those generated by naturally occurring mineral 
rights?
    Answer. Under current FAA policy on Revenue Use, a municipal water 
treatment facility located on airport property and without direct 
benefit to the airport would be required to pay the airport a ground 
lease set at Fair Market Value for use of the airport land. Mineral 
rights owned by the airport are thus airport property and therefore any 
revenue gained by their extraction would be airport revenue.
    In developing the Revenue Use Policy, the FAA was cognizant that 
the Airport and Airway Improvement Act of 1982 (AAIA) did not define 
the term airport revenue. Section 511(a)(1)(12) of the AAIA requires 
the sponsor of a public airport to use revenues generated by the 
airport for the capital or operating costs of the airport, the local 
airport system, or other local facilities which are directly and 
substantially related to the actual air transportation of passengers 
and property. The legislative history of section 511(a)(12) suggests 
that Congress did not intend airport revenues to apply to revenues 
generated by facilities, which are located on the airport, but are 
unrelated to air operations or services which support or facilitate air 
transportation. The House Report 2.H.R. Rep. No. 760, 97th. Cong., 2d 
Sess., 712 (1982) lists a water reservoir or convention center located 
on the airport as examples of such facilities. The FAA followed the 
guidance of the legislative history in defining airport revenue, but as 
stated in the Revenue Use Policy no longer considered the analogy 
between mineral extraction and operation of a convention center or 
water treatment plan to be appropriate. The FAA determined that mineral 
and water rights represent a part of the airport property and its 
value, and thus should be considered airport revenue.
    Accordingly, on February 26, 1996, the FAA issued its initial 
Proposed Policy on the Use of Airport Revenue. (61 Fed. Reg. 7134, 
February 26, 1996) After reviewing all comments received in response to 
this notice, the FAA issued a Supplemental Notice on December 11, 1996, 
and requested further public comment. (61 Fed. Reg. 66735, December 18, 
1996) Many comments on the original notice of proposed policy were 
addressed in the supplemental notice. The Proposed Policy did include 
royalties from mineral extraction on airport property earned by a 
sponsor as airport revenue. As noted in the disposition of comments in 
the Final Policy, one airport sponsor objected to this scope citing the 
Erie letter from 1985. Drawing on the context of Congressional 
direction in the 1994 Act to address generating revenues from all 
sources'' in its Policy, the FAA determined the value of airport 
property, if sold or leased, was a source of airport revenue. [See, 
Section 110 of Federal Aviation Administration Authorization Act of 
1994] The FAA based the scope of this interpretation on the previously 
held opinion issued in the Erie letter that the sale of the property 
with the minerals would require consideration of that value and 
appropriate compensation to the sponsor. The Erie letter stated the 
sale of the property should recognize the value of the minerals and 
``all proceeds from the sale of the mineral rights should be used for 
airport-related purposes.''
    With the publication of the final Revenue Use Policy in 1999, FAA 
applied 49 U.S.C. Sec. 47107 to certain \1\ revenue generated by a 
public airport property, including property owned by the airport, to be 
used for airport purposes. This application is based on Congressional 
intent as cited previously and the Agency's interpretation is supported 
by case law. Interpretation of grant assurances by the FAA (issued 
after notice and comment) are entitled to substantial deference. [See 
Auer v. Robbins, 519 U.S. 452, 461 (1997)] The Agency's publication of 
the initial and supplemental notices enabled the FAA to meet this 
standard to implement the policy interpretation.
---------------------------------------------------------------------------
    \1\ The exclusion of certain revenue is limited by statute to 
grandfather provisions permitting certain uses of airport revenue for 
non-airport purposes that predate the AAIA. None of which reference 
mineral rights.
---------------------------------------------------------------------------
    Note:
    In making its determination on the value of airport property, the 
FAA considered the basics of real estate law. Specifically, the FAA 
recognized there are some instances where airport sponsors do not own 
the minerals located under the surface of the airport. For example, at 
an airport in Texas, prior to becoming a federally funded airport, the 
airport land was deeded to a sponsor with a provision specifically 
reserving all interests in underground minerals from the transfer. 
Thus, the airport sponsor does not have an interest in those assets, 
nor in any proceeds derived from the mineral rights. In this case, the 
proceeds are not airport revenue. Because property interests can be 
separated, reserved, or transferred by a deed, the FAA reasonably 
concluded in its interpretation airport revenue includes the value of 
the airport property. Thus, in the absence of any specific reservation 
of the mineral rights or other interests in an airport property 
conveyance, such interests belong to the airport sponsor. Reaching any 
other conclusion would be tantamount to saying that a person does not 
own the minerals under his or her home because they belong to the prior 
homeowner. Unless specifically exempted in the deed of conveyance, 
property interests are whole, and any corresponding revenue generated 
is airport revenue.
    The House Conference Report for Public Law 97-24, (H.R. Conf. Rep. 
97-760, H.R. Conf. Rep. No. 760, 97TH Cong., 2ND Sess. 1982, p. 712), 
explains the intent of the airport revenue provision.

        . . . airport users should not be burdened with ``hidden 
        taxation'' for unrelated municipal services . . . This 
        provision is not intended to apply to revenue generated by 
        facilities which are located on airport property but are 
        unrelated to air operations or services which support or 
        facilitate air transportation. It would accordingly not apply 
        to revenue generated by such facilities as a water reservoir or 
        a convention center which happen to be located on airport 
        property, but which serve neither the airport nor any air 
        transportation purpose. It would apply to such facilities as 
        terminal concessions and parking lot serving the terminal or 
        other air transportation purposes.

    The legislative history for the Airport and Airway Safety and 
Capacity Expansion Act of 1987, Public Law 100-223 (December 30, 1987), 
reaffirms the earlier statement that Sec. 511(a)(12) is not intended to 
apply to revenue generated by facilities located on airport property 
but unrelated to air operations or services that support or facilitate 
air transportation. (H.R. Conf. Rep. No. 100-484, 100th Cong., 2d Sess. 
63 (1987), reprinted in 1987 U.S.C.C.A.N. 2638; see also, H.R. Rep. No. 
100-123 (II), 100th Cong., 2d Sess. 14, reprinted in 1987 U.S.C.C.A.N. 
2601, 2613.)
    7716 b. Revenue from sponsor activities on the airport. Airport 
revenue generally includes all revenue received by the sponsor for 
activities conducted by the sponsor itself as airport owner and 
operator, including revenue received: i. From any activity conducted by 
the sponsor on airport property acquired with Federal assistance; ii. 
From any aeronautical activity conducted by the sponsor which is 
directly connected to a sponsor's ownership of an airport subject to 49 
U.S.C. Sec. Sec. 47107(b) or 47133; or iii. From any nonaeronautical 
activity conducted by the sponsor on airport property not acquired with 
Federal assistance, but only to the extent of the fair rental value of 
the airport property. The fair rental value will be based on the fair 
market value.

    Question 3. Does the FAA believe it has the right to restrict the 
use of proceeds from mineral rights beneath airport lands when the land 
is owned by an independent third party and is leased to the airport for 
use as an airport? If so, under what specific statutory authority?
    Answer. In the case in which an airport is built on land in which 
the sub-surface mineral rights continue to be retained by a third 
party, the proceeds are not considered airport revenue. However, 
Allegheny County Airport and Pittsburgh International Airport are 
different. It does not matter whether the County or the Authority owns 
the mineral rights because the County, as original owner of the 
airports took Federal airport grants and accepted FAA revenue use 
polices which mandate mineral revenues extracted from airport property 
remain airport revenue as long as the site remains an airport, even if 
the sponsor of that airport changes.
    Allegheny County claims that it owns the mineral rights underneath 
the airport property according to Pennsylvania law, while Allegheny 
County Airport Authority is only leasing the land for airport purposes. 
In 1999, Allegheny County, the original airport sponsor, created an 
airport authority to operate the Airport. The County has the power to 
dissolve the Airport Authority and operate the Airport as it did prior 
to 1999 when the County took grants subject to the grant assurance 
requirements, including the revenue use requirements. As a condition to 
the transfer, the County was not released from the revenue use 
requirements. When the FAA approved the transfer from Allegheny County 
in the fall of 1999, after the adoption of the Revenue Use Policy in 
February 1999, both the County and the Airport Authority were advised 
that each must adhere to Federal law and regulations concerning the use 
of airport revenue. The County was informed that it is subject to 
revenue use restriction as long as the property is used as an airport. 
Consequently, any proceeds received from the oil deposits located on 
airport property are airport revenue and must be used for airport 
purposes.

    Question 4. The FAA committed to promulgating a standards-based 
rulemaking for portable oxygen concentrators when SFAR 106 was 
published in 2005 so that individual manufacturers would not have to 
seek a specific rulemaking approval for every device. Nevertheless, 7 
years later the FAA has not initiated that rulemaking and the current 
device approval process persists. With that in mind, will the FAA make 
individual device rulemakings a priority so as to not disrupt new and 
improved technologies from coming to market?
    Answer. I understand your desire to ensure new products are able to 
come to market in an expeditious manner. Shortly we expect to issue a 
rule approving additional O2 concentrators for use on aircraft. This 
rule will address all requests for approval currently at the FAA. We 
will continue to make individual requests a priority until a final rule 
is published.

                                  <all>

</pre></body></html>
